<html>
<title> - ADVANCING THE INTERNET OF THINGS IN RURAL AMERICA</title>
<body><pre>[Senate Hearing 115-644]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-644

                   ADVANCING THE INTERNET OF THINGS 
                            IN RURAL AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

    SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, INNOVATION, AND THE 
                                INTERNET

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 7, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


                Available online: http://www.govinfo.gov
                
                
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-227 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3a3bc93b0a6a0a7bbb6bfa3fdb0bcbefd">[email&#160;protected]</a>               
                
                
                
                
                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 
                                 
                                 ------                                

    SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, INNOVATION, AND THE 
                                INTERNET

ROGER F. WICKER, Mississippi,        BRIAN SCHATZ, Hawaii, Ranking
    Chairman                         MARIA CANTWELL, Washington
ROY BLUNT, Missouri                  AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                EDWARD MARKEY, Massachusetts
JERRY MORAN, Kansas                  CORY BOOKER, New Jersey
DAN SULLIVAN, Alaska                 TOM UDALL, New Mexico
DEAN HELLER, Nevada                  GARY PETERS, Michigan
JAMES INHOFE, Oklahoma               TAMMY BALDWIN, Wisconsin
MIKE LEE, Utah                       TAMMY DUCKWORTH, Illinois
RON JOHNSON, Wisconsin               MAGGIE HASSAN, New Hampshire
SHELLEY CAPITO, West Virginia        CATHERINE CORTEZ MASTO, Nevada
CORY GARDNER, Colorado
TODD YOUNG, Indiana
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 7, 2017.................................     1
Statement of Senator Wicker......................................     1
    Letter dated November 7, 2017 to Hon. Roger Wicker and Hon. 
      Brian Schatz from the Competitive Carriers Association.....    53
Statement of Senator Schatz......................................     2
Statement of Senator Fischer.....................................    31
Statement of Senator Gardner.....................................    34
Statement of Senator Moran.......................................    36
Statement of Senator Klobuchar...................................    38
Statement of Senator Hassan......................................    40
Statement of Senator Cortez Masto................................    42
Statement of Senator Cantwell....................................    43
Statement of Senator Udall.......................................    45
Statement of Senator Duckworth...................................    46
Statement of Senator Markey......................................    49

                               Witnesses

Michael P. Adcock, FACHE, Executive Director, Center for 
  Telehealth, University of Mississippi Medical Center...........     4
    Prepared statement...........................................     5
David L. Armitage, CEO/Founder, Cartasite........................     7
    Prepared statement...........................................     9
Timothy Hassinger, President and CEO, Lindsay Corporation........    11
    Prepared statement...........................................    13
Michael Terzich, Chief Administrative Officer, Zebra Technologies    14
    Prepared statement...........................................    16
Angela Siefer, Executive Director, National Digital Inclusion 
  Alliance.......................................................    19
    Prepared statement...........................................    20

                                Appendix

Hon. Bill Nelson, U.S. Senator from Florida, prepared statement..    57
Response to written question submitted by Hon. Tom Udall to 
  Michael Terzich................................................    57

 
                   ADVANCING THE INTERNET OF THINGS 
                            IN RURAL AMERICA

                              ----------                              


                       TUESDAY, NOVEMBER 7, 2017

                               U.S. Senate,
       Subcommittee on Communications, Technology, 
                      Innovation, and the Internet,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Roger Wicker, 
Chairman of the Subcommittee, presiding.
    Present: Senators Wicker [presiding], Blunt, Fischer, 
Moran, Capito, Gardner, Schatz, Cantwell, Klobuchar, 
Blumenthal, Markey, Udall, Duckworth, Hassan, and Cortez Masto.

          OPENING STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Good morning. Thank you all for being here. 
Today, the Subcommittee meets to examine the Internet of 
Things. Our discussion will focus on how to advance the 
availability and accessibility of these technologies in rural 
America. I'm glad to convene this hearing with my good friend 
and colleague, Ranking Member Schatz.
    The Internet of Things encompasses a diverse market of 
Internet-connected devices, machines, and physical objects. 
Over the past few years, we've seen an increasing number of 
physical objects like refrigerators and washing machines take 
on smarter capabilities through Internet-connected sensors. 
Internet connectivity enables these things to collect data and 
share actionable insights to consumers and businesses alike. 
This information allows the user to be more productive, 
efficient, and cost effective. It's changing our economy.
    Beyond generating simple conveniences, IoT technologies are 
taking on more significant and vital roles in our lives. They 
are making us safer, improving our health, and opening up 
opportunities for economic advancement in both urban and rural 
communities. In our rural communities, in particular, IoT 
technologies, such as telemedicine, are making a big impact.
    In my home state, the University of Mississippi Medical 
Center, which is represented here today, is providing 
lifesaving healthcare services through innovative telehealth 
applications. Physicians are remotely monitoring and diagnosing 
patients. This remote access can offer specialty care that is 
not readily available in many rural communities.
    Our first responders are also using telemedicine to 
communicate and provide treatment in the field. For example, 
first responders can consult with emergency personnel in 
hospitals through video applications. This is accelerating the 
delivery of care and saving lives.
    Underlying these IoT technologies and their economic and 
societal benefits are reliable broadband connections and mobile 
broadband services. Internet connectivity is absolutely 
essential to the adoption of these technologies. As IoT 
technologies become smarter and increasingly sophisticated, 
they will require seamless and reliable Internet connectivity 
to achieve the promised health, safety, and economic benefits.
    To that end, it is vitally important that the Federal 
Communications Commission take steps to ensure that the 
Universal Service Fund program provides adequate and 
predictable support to help preserve and expand broadband in 
rural and underserved communities. It's also important for the 
Commission to collect accurate and reliable coverage data for 
programs, like Phase II of the Mobility Fund, before making new 
funding decisions. We should ensure the delivery of essential 
communication services to communities in need first.
    In addition to accelerating the deployment of broadband in 
our rural areas, cybersecurity will be key to advancing the 
economic success of the Internet of Things market. Large scale 
data breaches have understandably shaken consumers' confidence 
and trust. Fortified security measures will help strengthen the 
United States leadership role and competitiveness in the IoT 
market around the world. The Internet of Things marks an 
exciting space for digital innovation in this country. There is 
significant economic potential associated with these 
technological developments.
    Today, I look forward to learning from our witnesses about 
how the IoT is bringing vital services to rural America and 
creating opportunities for investment, innovation, and job 
creation. I welcome the testimony of the witnesses here today 
and thank them for their testimony.
    At this point, I will recognize my colleague, the Ranking 
Member of this Subcommittee, Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you very much, Chairman Wicker.
    IoT brings great opportunity for everyone, regardless of 
their zip code. For instance, in Hawaii, we've already seen IoT 
technologies improve access to healthcare in rural communities. 
A few months ago, I visited the Island of Lanai and met the 
staff at the Lanai Community Health Center, who told me that 
they've been using telehealth in their practice for a few years 
now. Through IoT technologies, they're helping patients to 
manage diabetes remotely and connecting patients with 
specialists on Oahu.
    This has resulted in higher quality care with improved 
diagnoses and medication management and also substantial 
savings in travel costs. We should be making it easier for 
organizations like the Lanai Community Health Center to cut 
costs and improve care with these technologies. It is my hope 
that our Federal laws will enable patients and providers in 
every state to use telehealth.
    In this effort, I introduced the Connect for Health Act 
with Chairman Wicker, Chairman Thune, Ranking Member Nelson, 
and others on this committee, including Senators Capito, 
Klobuchar, and Blunt. This bill lifts outdated restrictions on 
originating sites and geographic requirements and does so in 
ways that can better control costs for Medicare. Four 
provisions from the Connect for Health Act were included in the 
Chronic Care Act which passed the Senate and is being 
considered by the House.
    Telehealth is just one example of how rural communities 
across America can benefit from IoT. But this can only happen 
if they have the right infrastructure and resources. Right now, 
not everybody is able to take advantage of IoT for many 
reasons, but I'll list just three.
    First, there is a broadband gap. IoT in rural areas cannot 
fully take off without broadband connectivity. Some telehealth 
applications can succeed without full broadband access, and we 
should push ahead with those, but there are others the require 
the broadband. Unfortunately, one in four rural residences 
still does not have access to 25 megabits per second broadband.
    To close this gap, we need more accurate information to 
start. Right now, there are a number of issues with the way the 
FCC collects information on where broadband is and is not 
available. This needs to change. Senator Manchin's Rural 
Wireless Access Act takes a step in the right direction by 
asking the FCC to establish a consistent methodology for data 
collection. We need to know where the divide is, so we are 
taking steps to close it.
    Second, there is the cost of the physical infrastructure. 
Congress has a role to play in getting that infrastructure 
deployed. This can include public-private partnerships and tax 
credits. But it will take direct spending to get broadband 
built out where the private sector won't.
    Third, there is a gap in adoption. Naturally, much of our 
focus is on expanding availability, but we cannot lose sight of 
gaps in actual adoption of broadband. There are a number of 
reasons for the lack of adoption, including pricing, digital 
literacy, and other issues. Rural consumers' adoption of 
broadband will be essential for realizing the full potential of 
IoT.
    After this hearing, I look forward to working with Chairman 
Wicker and others on the Committee on some direct steps that 
can be made, removing barriers for broadband deployment and 
promoting innovations in unlicensed spectrum.
    Thank you again, Chairman Wicker, for holding this hearing.
    Senator Wicker. Thank you.
    Senator Schatz has a commitment at another committee, and 
we hope that you can be back shortly. We certainly appreciate 
the fact that you're spread mighty thin this morning.
    Our witnesses today are Mr. Michael Adcock, Executive 
Director, Telehealth Center, at the University of Mississippi 
Medical Center; Mr. David Armitage, Founder and CEO of 
Cartasite; Mr. Timothy Hassinger, President and CEO of Lindsay 
Corporation; Mr. Michael Terzich, Chief Administrative Officer 
of Zebra Technologies; and Ms. Angela Siefer, Director, 
National Digital Inclusion Alliance. We are thrilled to have 
all of these witnesses here.
    Mr. Adcock, you're recognized first for a summary of your 
testimony for approximately 5 minutes. Welcome.

             STATEMENT OF MICHAEL P. ADCOCK, FACHE,

           EXECUTIVE DIRECTOR, CENTER FOR TELEHEALTH,

            UNIVERSITY OF MISSISSIPPI MEDICAL CENTER

    Mr. Adcock. Chairman Wicker, Ranking Member Schatz, and 
members of the Subcommittee, thank you for the opportunity to 
appear here today. I am Michael Adcock, Executive Director for 
the Center for Telehealth at the University of Mississippi 
Medical Center in Jackson, Mississippi. I am honored to talk 
with you this morning about telehealth and the ways that its 
power can be harnessed to address healthcare needs across 
America.
    Telehealth has been a part of the healthcare landscape in 
Mississippi for over 14 years, beginning with an aggressive 
program to address mortality in rural emergency departments. 
Today, the UMMC Center for Telehealth delivers more than 30 
medical specialties across 200 sites of service across the 
state, including rural clinics, schools, prisons, and 
corporations. This network allows us to deliver world class 
care in 68 of Mississippi's 82 counties and provide access for 
patients who might otherwise go untreated.
    Over the last decade, we have conducted over 500,000 
patient encounters through telehealth. Maximizing our 
utilization of healthcare resources through the use of 
technology is the only way we can reach all of the 
Mississippians who need lifesaving healthcare and would not be 
available in local communities and homes without broadband 
connectivity.
    One program that has been very impactful for our patients 
is remote patient monitoring, which manages chronic disease in 
patients' homes. Our initial pilot with diabetes in the 
Mississippi Delta was a public-private partnership between 
critical access hospital North Sunflower Medical Center, 
telecommunications provider C Spire, technology partner Care 
Innovations, the Mississippi Division of Medicaid, the Office 
of the Governor of Mississippi, and the University of 
Mississippi Medical Center.
    The results of the study showed a marked decrease in blood 
glucose, early recognition of diabetes-related eye disease, 
reduced travel to see specialists, and no diabetes-related 
hospitalizations or emergency room visits among our patients. 
This pilot demonstrated impressive savings, and the Mississippi 
Division of Medicaid extrapolated the financial data to show 
potential savings of over $180 million per year if 20 percent 
of the diabetics on the Mississippi Medicaid program 
participated. This pilot demonstrated how educating patients 
about their disease and empowering them to care for themselves 
is extremely beneficial and is best done in their home.
    Initially, wired broadband in the home was thought to be 
the easiest way to provide the connectivity needed. But because 
only one third of Mississippians have access to residential 
fixed broadband, this is not always a reliable option. To 
provide the most reliable connectivity, we partnered with C 
Spire, a regional telecommunications company, to connect our 
patients via mobile broadband. This worked during the pilot 
program and continues to be our solution for connecting 
patients to the resources they need for remote patient 
monitoring. However, as telehealth grows and additional 
services are available, a more reliable fixed solution will be 
necessary.
    While our center continues to find ways to connect patients 
to the care they need, too many Americans still lack access to 
broadband. Ten percent of all Americans and 39 percent of rural 
Americans lack access to adequate service. In Mississippi, the 
digital divide is even more pronounced. In our state, only 34 
percent of Mississippians have access to residential fixed 
broadband connections.
    Two-thirds of Mississippi counties are more than a 40-
minute drive from specialty care. In order to deliver care in 
an efficient manner across our state, expansion of reliable and 
available broadband is essential. The Center for Telehealth has 
worked closely with local and national telecommunications 
providers to expand band width in sites across Mississippi. 
These partnerships, along with investments from FCC's Universal 
Service Fund program, have made broadband more available and 
more affordable in many regions of our state.
    More can and should be done. Legislation introduced by 
Chairman Wicker would improve the validity and reliability of 
wireless coverage and expand broadband to rural areas and 
communities that are truly in need. The Rural Wireless Act and 
SPEED Act of 2017 will help close the digital divide 
experienced by many, especially in rural and remote geographic 
areas where disease burden is greatest. It will do this by 
eliminating delays that often raise cost and slow the 
deployment of broadband to rural areas. It will also fast-track 
the deployment of next-generation broadband that is critical to 
advancing innovative technologies.
    The benefits of telehealth are not available to patients 
without access to high-speed Internet. As technology and 
healthcare services expand to meet patients where they live, 
broadband coverage must improve to make this care accessible.
    Thank you for taking the time to focus on how access to 
broadband in rural areas can help to close the digital divide, 
bring healthcare resources to remote communities, and create a 
connectedness that transcends location. Without broadband, 
healthcare cannot operate outside of America's hospitals and 
clinics and cannot harness the power of technology to better 
treat our patients.
    Thank you for inviting me to testify today and for your 
time and attention to this very important matter.
    [The prepared statement of Mr. Adcock follows:]

  Prepared Statement of Michael P. Adcock, FACHE, Executive Director, 
    Center for Telehealth, University of Mississippi Medical Center
    Chairman Wicker, Ranking Member Schatz, and Members of the 
Committee, thank you for the opportunity to appear before you today. I 
am Michael Adcock, Executive Director for the Center for Telehealth at 
the University of Mississippi Medical Center (UMMC) in Jackson, 
Mississippi. I am honored to talk to you this morning about telehealth 
and the ways that its power can be harnessed to address healthcare 
needs across America.
    Mississippi has significant healthcare challenges, leading the 
Nation in heart disease, obesity, cardiovascular disease and diabetes. 
These and other chronic conditions require consistent, quality care--a 
task that is made harder by the rural nature of our state. In order to 
improve access to care and give Mississippians a better quality of 
life, it is clear that we need something more than traditional, clinic 
and hospital-based services.
    Telehealth has been a part of the healthcare landscape in 
Mississippi for over 14 years, beginning with an aggressive program to 
address mortality in rural emergency departments. In 2003, three rural 
sites were chosen to participate in a program that would allow UMMC 
board certified emergency medicine physicians to interact with and care 
for patients in small, rural emergency rooms via a live, audio-video 
connection. The TelEmergency program has grown to serve more than 20 
hospitals and continues to produce outcomes on par with that of our 
Level 1 trauma center.
    Today, the UMMC Center for Telehealth delivers more than 30 medical 
specialties in over 200 sites across the state including rural clinics, 
schools, prisons and corporations. The depth and breadth of this 
network allows us to deliver world-class care in 68 of our state's 82 
counties and provide access for patients who might otherwise go 
untreated. Over the last decade, we have conducted over 500,000 patient 
encounters through telehealth. Maximizing our utilization of healthcare 
resources through the use of technology is the only way we can reach 
all of the Mississippians who need lifesaving health care. These world 
class services would not be available in local communities and homes 
without broadband connectivity.
    One program that has been very impactful for our patients is remote 
patient monitoring (RPM), which manages chronic disease in a patient's 
home. RPM is designed to educate, engage and empower patients so that 
they can learn to take care of themselves. Our initial pilot with 
diabetics in the Mississippi Delta was a public/private partnership 
between critical access hospital North Sunflower Medical Center, 
telecommunications provider C Spire, technology partner Care 
Innovations, the Mississippi Division of Medicaid, Office of the 
Governor of Mississippi and UMMC. The purpose of the pilot was to test 
the effectiveness of remote patient monitoring using technology in a 
rural, underserved area. The results of the study showed a marked 
decrease in blood glucose, early recognition of diabetes-related eye 
disease, reduced travel to see specialists and no diabetes-related 
hospitalizations or emergency room visits among our patients. This 
pilot demonstrated a savings of over $300,000 in the first 100 patients 
over six months. The Mississippi Division of Medicaid extrapolated this 
data to show potential savings of over $180 million per year if 20 
percent of the diabetics on Mississippi Medicaid participated in this 
program. The benefits were not only financial and health related. Many 
of the patients who participated in this program did not have Internet 
connectivity in their homes and some had never accessed the internet. 
This program opened up a whole new world to them and has sparked their 
interest in staying connected.
    The pilot demonstrated how educating patients about their disease 
and empowering them to care for themselves is extremely beneficial and 
is best done in their home. Bringing this technology into the home 
requires access to reliable broadband coverage. Initially, wired 
broadband in the home was thought to be the easiest way to provide the 
connectivity needed, but because only one third of Mississippians have 
access to residential fixed broadband, this is not always a reliable 
option. To provide the most reliable connectivity, we partnered with C 
Spire, a regional telecommunications company, to connect to our 
patients via mobile broadband. This worked during the pilot program and 
continues to be our go to solution for connecting patients to the 
resources they need for remote patient monitoring. However, as 
telehealth grows and additional services are available in the home, a 
more reliable, fixed solution will be necessary.
    Given the success of the pilot, UMMC Center for Telehealth has 
expanded remote patient monitoring to include adult and pediatric 
diabetes, congestive heart failure, hypertension, bone marrow 
transplant and kidney transplant patients. Working closely with a 
patient's primary care provider, we continue to grow this program both 
in terms of volume and number of diseases that can be managed. It gives 
patients the knowledge and tools they need to improve their health and 
manage their chronic disease.
    While our Center continues to find ways to connect patients to the 
care they need, too many Americans still lack access to broadband, 
particularly the 23 million Americans living in rural areas. Ten 
percent of all Americans (34 million people) and 39 percent of rural 
Americans lack access to 25 Mbps/3 Mbps service. FCC data shows that as 
many as one in three households do not subscribe to Internet service. 
In Mississippi the digital divide is even more pronounced. In our 
state, only 34 percent of Mississippians have access to residential 
fixed broadband connections, with only three counties showing greater 
than 60 percent residential broadband access.
    Mississippi spans 48,000 square miles, two thirds of our counties 
are more than a 40 minute drive from specialty care. When people live 
that far from specialty care, at best, care is delayed. At worst, care 
is never received. Telehealth allows us to deliver care in areas where 
it would not normally be available. In order to deliver care in an 
efficient manner across our state, expansion of reliable and available 
broadband is essential. The Center for Telehealth has worked closely 
with local and national telecommunications providers to expand 
bandwidth in sites across Mississippi. These partnerships, along with 
investment from the FCC's Universal Service Fund program, have made 
broadband more available and affordable in many regions. We were 
honored to have FCC Commissioner Clyburn in our state multiple times to 
see firsthand the importance of broadband access to improving health 
outcomes throughout Mississippi.
    More can and should be done. Legislation authored by Chairman 
Wicker would improve the validity and reliability of wireless coverage 
and expand broadband to rural areas and communities that are truly in 
need. S. 1621, the Rural Wireless Act, will help close the digital 
divide experienced by many, especially in rural and remote geographic 
areas, where disease burden is greatest.
    We also support S. 1988, the Streamlining Permitting to Enable 
Efficient Deployment of Broadband Infrastructure Act of 2017 (SPEED 
Act). This bill will eliminate delays that often raise costs and slow 
the deployment of broadband to rural areas. It will also fast-track the 
deployment of next generation broadband that is critical to advancing 
innovative technologies in telemedicine.
    The benefits of telehealth are not available to patients without 
access to high speed Internet across America. As technology and 
healthcare services expand to meet patients where they live, broadband 
coverage must improve to make this care accessible.
    Thank you for taking the time to focus on how access to broadband 
in rural areas can help to close the digital divide, bring health care 
resources to remote communities and create a connectedness that 
transcends location. Without broadband, health care cannot operate 
outside of America's hospitals and clinics and cannot harness the power 
of technology to better treat our patients. Thank you for inviting me 
to testify today and for your time and attention to this very important 
matter.

    Senator Wicker. Thank you, Mr. Adcock.
    Mr. Armitage.

     STATEMENT OF DAVID L. ARMITAGE, CEO/FOUNDER, CARTASITE

    Mr. Armitage. Good morning, Chairman Wicker, members of the 
Subcommittee. Thank you for inviting me in today. I am David 
Armitage, Chief Executive Officer of Cartasite. I founded the 
company in 2004 to bring real-time operational intelligence to 
the oil and gas industry.
    During the fall of 2014, a response to precipitous declines 
in commodity prices, the oil and gas industry moved from 
``drill baby drill'' to ``tighten the belt; the ride is getting 
rough.'' The domestic oil and gas industry is resilient and 
resourceful. In the past 20 years, horizontal drilling and 
hydraulic fracturing technologies have opened up resources in 
the U.S. that have us on a path to energy self-sufficiency. 
That reality would have seemed like a fantasy two decades ago. 
The implications for the U.S. economy and geopolitics are 
profound. The U.S. is on track to exceed the country's all time 
high of 10 million barrels a day reached in November 1970.
    Despite all of the success the industry has realized in 
reducing costs to find the next barrel of oil, we are still a 
relatively high-cost producer. The industrial Internet of 
Things is not hype or Silicon Valley's latest buzz word. IoT is 
helping to streamline business process, enhance safety, reduce 
environmental impact, and improve utilization of critical 
assets. Every aspect of energy production is being impacted by 
real-time remote monitoring, predictive analytics, cloud 
computing, smart sensors, advanced automation, and remote 
monitoring systems are pushing connectivity into remote areas 
to the benefit of rural communities.
    But there is no free lunch. The margin squeeze of the past 
3 years has been painful. Tens of thousands of workers have 
lost their jobs. The budgets of rural communities have been 
slashed, and many firms have been forced into bankruptcy. We 
have seen an upstream oil and gas workforce decline by over 20 
percent.
    The industry's rapid response to lower commodity prices 
provides an interesting Petri dish to study the implications, 
both good and bad, of the industrial Internet of Things on our 
society. In the past 3 years, the number of barrels produced 
per worker has increased by over 27 percent. We can find no 
other examples in recent history where an industry of such 
scale has managed such a dramatic increase in worker 
productivity. There may be several factors contributing to this 
remarkable increase, but there can be no question that the 
industry's embrace of industrial Internet of Things has played 
a significant role.
    Industrial IoT utilizes remote sensors to deliver data to 
cloud servers, where algorithms sift through the telemetry to 
identify actionable insights that streamline business process. 
The connectivity implicit in this architecture is bringing 
wireless high-speed networks to remote areas of our country 
where population densities would otherwise not provide 
sufficient economic incentive for cellular and broadband 
carriers.
    At Cartasite, we utilize real-time vehicle monitoring 
technology to help oil field workers get home safely to their 
families every night. Large corporations like Anadarko 
Petroleum, Encana, and ConocoPhillips leverage this IoT data to 
optimize deployment of field workers, resulting in reductions 
in crashes, traffic, fuel consumption, and emissions. These 
industry fleets traverse some of the nation's most remote areas 
and provide us with interesting insights.
    We see firsthand the negative impact on productivity and 
safety that comes from a lack of cellular coverage, off the 
highway and off the major road networks. These companies have 
worked closely with cellular carriers to enhance coverage, in 
some cases even funding the deployment of new cell towers. It's 
that critical to their business. While well site and pipeline 
monitoring technology has been available for over 30 years, 
penetration remains surprisingly low in some areas. The cost 
and complexity of legacy systems has placed the technology 
beyond the reach of many operators. This is changing quickly.
    Smartphones have accelerated the commoditization of 
sensors, GPS processors, and cellular modems. The industrial 
IoT is riding this wave and bringing to market simple tags with 
exotic capabilities. At Cartasite, we have a system in our labs 
which is able to detect unintended methane leaks from remote 
well sites and report on these fugitive gas emissions over the 
cellular network. This data feeds into worldVIEW, a real-time 
geospatial dash board that companies can use to dispatch 
inspection and repair crews.
    Methane is a significant greenhouse gas, some 80 times 
worse than CO<INF>2</INF> for our planet. The industry has 
worked closely with the EPA to reduce these unintended fugitive 
emissions, and our Project Canary is an outstanding example of 
the industrial IoT technology which will help lessen the 
environmental impact of oil field operations.
    The digital oil field is ushering in a new era of 
efficient, safer, and more cost-effective field operations. The 
industry is rapidly moving from management by schedule to 
management by exception, driven by the real-time insight 
garnered from these remote monitoring technologies. The oil and 
gas industry is embracing these technologies to ensure the 
safety of their workers, the security of critical assets, and 
the economic viability of the industry.
    Thank you.
    [The prepared statement of Mr. Armitage follows:]

    Prepared Statement of David L. Armitage, CEO/Founder, Cartasite
    During the fall of 2014, in response to precipitous declines in 
commodity prices, the oil and gas industry moved from drill baby drill 
to tighten the belts, the ride's gettin' rough.
    The domestic oil and gas industry is resilient and resourceful. In 
the past 20 years, horizontal drilling and hydraulic fracturing 
technologies opened up re-sources in the U.S. that have us on a path to 
energy self-sufficiency. The U.S. is on track to exceed the country's 
all time high of 10 MMbbl/day reached in November of 1970. That reality 
would have seemed like a fantasy two decades ago. The implications for 
the U.S. economy and geopolitics are profound.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Despite all the success the industry has realized in reducing the 
costs to find the next barrel of oil, we are still a relatively high 
cost producer. The Industrial Internet of Things is not hype or Silicon 
Valley's latest buzzword. IoT is helping to streamline business 
process, enhance safety, reduce environmental impact, and improve 
utilization of critical assets. Every aspect of energy production is 
being impacted by realtime remote monitoring, predictive analytics, 
Cloud computing, smart sensors, and machine learning. Advanced 
automation and remote monitoring systems are pushing connectivity into 
remote areas, to the benefit of rural communities. But there is no free 
lunch.
    The margin squeeze of the past three years has been painful. Tens 
of thou-sands of workers have lost their jobs, the budgets of rural 
communities have been slashed, and many firms have been forced into 
bankruptcy. We have seen the upstream oil and gas industry workforce 
decline over 20 percent.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The industry's rapid response to lower commodity prices provides an 
interesting petri dish to study the implications, both good and bad, of 
the Internet of Things on our society. In the past three years the 
number of barrels produced per worker has increased by over 27 percent. 
We can find no other examples in recent history where an industry of 
such scale has managed such a dramatic increase in worker productivity. 
There may be several factors contributing to this remarkable increase, 
but there can be no question that the industry's embrace of Industrial 
IoT has played a significant role.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Industrial IoT utilizes remote sensors to deliver data to the Cloud 
servers where algorithms sift through the telemetry to identify 
actionable insights that stream-line business response. The 
connectivity implicit in this architecture is bringing wireless, high 
speed networks to remote areas of our country where population 
densities would otherwise not provide sufficient economic incentive for 
cellular and broadband carriers. At Cartasite, we utilize realtime 
vehicle monitoring technology to help oil field workers get home safely 
to their families every night. Large corporations like Anadarko 
Petroleum, Encana, and ConocoPhillips leverage this IoT data to 
optimize deployment of field workers, resulting in reductions in 
crashes, traffic, fuel consumption, and emissions. These industry 
fleets traverse some of the Nation's most remote areas and provide us 
with some interesting insights. We see first hand the negative impact 
on productivity and safety that come from a lack of cellular coverage 
off of the highway and major road networks. These companies have worked 
closely with the cellular carriers to enhance coverage, in some cases 
even funding the deployment of new cell towers.
    Remote worker safety is a critical issue for many industries, 
including oil and gas, utilities, forestry, agriculture, and rail. The 
lack of cellular coverage has led industry to seek out alternative 
systems, including private radio networks and satellite beacons. As 
coverage is enhanced we can anticipate more effective integration with 
state and Federal emergency response infrastructure.
    While wellsite and pipeline monitoring technology has been 
available for over thirty years, penetration remains surprisingly low 
in many areas. The cost and complexity of legacy systems has placed the 
technology beyond the reach of many operators. This is changing 
quickly. Smartphones have accelerated the commoditization of sensors, 
GPS processors, and cellular modems. Industrial IoT is riding this wave 
and bringing to market simple tags with exotic capabilities. At 
Cartasite, we have a system in our labs which is able to detect 
unintended methane leaks from remote wellsites and report on these 
`fugitive' gas emissions over the cellular network. This data feeds 
into worldVIEW, a realtime geospatial dashboard that companies can use 
to dispatch inspection and repair crews. Methane is a significant 
greenhouse gas, some 80 times worse than CO<INF>2</INF> for our planet. 
The industry has worked closely with the EPA to reduce these unintended 
fugitive emissions and our Project Canary is an outstanding example of 
an Industrial IoT technology which will help lessen the environmental 
impact of oil field operations.
    The Digital Oilfield is ushering a new era of highly efficient, 
safer, and more cost-effective field operations. The industry is 
rapidly moving from `management by schedule' to `management by 
exception' driven by the realtime insights garnered from remote 
monitoring technologies. The oil and gas industry is embracing these 
technologies to ensure the safety of their workers, the security of 
critical assets, and the economic viability of the industry.

    Senator Wicker. Thank you, Mr. Armitage.
    Mr. Hassinger, have I pronounced your name correctly?
    Mr. Hassinger. Yes, you have.
    Senator Wicker. We're glad to have you with us.
    Mr. Hassinger. Thank you.

  STATEMENT OF TIMOTHY HASSINGER, PRESIDENT AND CEO, LINDSAY 
                          CORPORATION

    Mr. Hassinger. Good morning, Senators. I'd like to thank 
Subcommittee Chairman Wicker, Ranking Member Schatz, Senator 
Deb Fischer, and all the members of the Subcommittee for this 
opportunity to testify in today's hearing.
    My name is Tim Hassinger. I'm the President and Chief 
Executive Officer of Nebraska-based Lindsay Corporation, a 
leading manufacturer of center pivot and lateral move 
agricultural irrigation systems. For more than 50 years, 
Lindsay Corporation has been at the forefront of research and 
development of products and services designed to meet the 
world's rapidly growing agriculture and transportation needs. 
It's an honor and privilege to be here today representing my 
company and the agricultural industry. I'd like to thank 
Senator Fischer for inviting me to speak about the important 
role broadband access plays in the agricultural industry in 
operations of all sizes and in all regions of the country.
    As you might know, it's estimated that by 2050, the global 
demand for food will be 60 percent higher than it is today. To 
meet this daunting challenge, it's imperative that we develop 
and deploy technologies that will help growers produce more 
with less while preserving water and other natural resources. 
Broadband access is the key to unlocking the power of these 
technologies, and, respectfully, Senators, I ask the question: 
Would you be able to do your job without access to the 
Internet? Probably not, and neither can farmers.
    So like all business owners, farmers need to be online. The 
Internet fuels the innovative advanced technology that will 
help them meet the food, fuel, and fiber needs of the rapidly 
growing global population. With the touch of a button or swipe 
of a finger, farmers who have broadband access can receive 
commodity price information, monitor and respond to challenging 
weather conditions, get real-time data on soil moisture 
conditions, store and analyze data to increase sustainability 
and productivity.
    They can also take advantage of the many new technologies 
now available from Lindsay Corporation and other American 
manufacturers. Among other things, these innovations enable 
remote data collection, transfer and analysis from connected 
devices like soil moisture sensors, weather stations, and 
cloud-based support tools. Farmers are using this information 
to streamline their operations and maximize efficiency and 
increase productivity.
    We work with farmers every day, so we know the power that 
comes with the ability to leverage big data. We now offer 
technology that helps farmers decide precisely when, where, and 
how input to maximize yields while reducing overwatering, and 
then, ultimately, input costs and nutrient losses. In recently 
conducted field studies, our researchers found that remote 
telemetry streamlined growing operations in several key ways, 
including 3 percent increase in corn yield, a 17 percent 
reduction in water usage, $10 per acre reduction in energy 
costs, 75 percent reduction in time spent going back and forth 
in the fields.
    This combination of yield enhancement and resource savings 
can increase American farmers' profits by an average of $40 per 
acre, profits that can be re-invested in their operation and in 
their local economy. For farmers across the country, these 
technologies are no longer luxuries. Rather, they're critical 
tools needed to increase the overall operational efficiency and 
productivity needed to compete in the global marketplace. 
However, farmers can only employ these connected tools if they 
have reliable, high-speed Internet access, and for an estimated 
39 percent of the rural population, it's simply not available.
    While cities and municipalities typically have access to 
several high-speed Internet service providers, that access 
often ends at the county line. Those living in rural 
communities depend on radio network, satellite, or cell 
service, all of which typically operate at lower speeds, 
limiting connectivity. It's a competitive world, and many 
people living in rural communities feel like they're being left 
behind, that they're not operating on a level playing field. In 
order for those communities and our country to thrive and 
compete in the global marketplace, we must bridge that digital 
divide.
    With rural broadband access, business owners will have 
access to new markets and employees, healthcare workers will be 
able to access advanced equipment, students will be afforded 
new educational opportunities, and farmers will be able to take 
advantage of emerging technologies that will help them increase 
yields while conserving water and other natural resources.
    Thank you.
    [The prepared statement of Mr. Hassinger follows:]

      Prepared Statement of Timothy Hassinger, President and CEO, 
                          Lindsay Corporation
    Good morning Senators. I would like to thank Subcommittee Chairman 
Wicker, Ranking Member Schatz, Senator Deb Fischer and all of the 
members of the subcommittee for this opportunity to testify at today's 
hearing.
    My name is Tim Hassinger. I am the president and chief executive 
officer of Nebraska-based Lindsay Corporation--a leading manufacturer 
of center pivot and lateral move agricultural irrigation systems. For 
more than 50 years, Lindsay Corporation has been at the forefront of 
research and the development of products and services designed to meet 
the world's rapidly growing agriculture and transportation needs.
    It's an honor and a privilege to be here today representing my 
company and the agriculture industry. I would like to thank Senator 
Fischer for inviting me to speak about the important role broadband 
access plays in the agriculture industry--on operations of all sizes in 
all regions of the country.
    As you may know, it's estimated that by 2050, the global demand for 
food will be 60 percent higher than it is today. To meet this daunting 
challenge, it's imperative that we develop and deploy technologies that 
will help growers produce more with less, while preserving water and 
other natural resources.
    Broadband access is the key to unlocking the power of those 
technologies. Respectfully, Senators--could you do your job without 
access to the Internet? Probably not--and neither can our Nation's 
farmers.
    Like all business owners, farmers need to be online. The Internet 
fuels the innovative, advanced technology that will help them meet the 
food, fuel and fiber needs of the rapidly growing global population.
    With the touch of a button or swipe of a finger, farmers who have 
broadband access can:

  <bullet> Receive commodity price information

  <bullet> Monitor and respond to changing weather conditions

  <bullet> Use GPS for planting and irrigation management

  <bullet> Get real time data on soil and moisture conditions

  <bullet> Connect with other farmers and agriculture experts, and

  <bullet> Store and analyze data to increase sustainability and 
        productivity

    They can also take advantage of a myriad of new technologies now 
available from Lindsay Corporation and other American manufacturers. 
Among other things, these innovations enable remote data collection, 
transfer and analysis from connected devices like soil moisture 
sensors, weather stations and cloud-based support tools. Farmers are 
using this information to streamline their operations, maximize 
efficiency and increase productivity.
    We work with farmers every day, so we know the power that comes 
with the ability to leverage big data. We now offer technology that 
helps farmers decide precisely when, where and how much to irrigate--
maximizing yields while reducing overwatering and related input costs 
and nutrient losses.
    In recently conducted field studies, our researchers found that 
remote telemetry streamlined growing operations in several key ways, 
including:

  <bullet> 3 percent increase in corn yield (driving profit of $25 per 
        acre)

  <bullet> 17 percent reduction in water usage (saving more than 9.25 
        million gallons on a 130 acre field)

  <bullet> $10/acre reduction in energy costs

  <bullet> 75 percent reduction in time spent going back and forth to 
        the fields (another $5/acre saved)

    This combination of yield enhancement and resource savings can 
increase American farmers' profits by an average of $40 per acre--
profits that can be reinvested in their operation and in their local 
economy.
    For farmers across the country, these technologies are no longer 
luxuries. Rather, they are critical tools needed to increase the 
overall operational efficiency and productivity needed to complete in 
the global marketplace.
    However, farmers can only employ these connected tools if they have 
reliable, high-speed Internet access--and, for an estimated 39 percent 
of the rural population (23.4 million Americans), it's simply not 
available.
    While cities and municipalities typically have access to several 
high-speed Internet service providers, that access often ends at the 
county line. Those living in rural communities depend on radio 
networks, satellite or cell service--all of which typically operate at 
lower speeds, limiting connectivity.
    It's a competitive world, and many people living in rural 
communities feel like they're being left behind--that they're not 
operating on a level playing field.
    In order for those communities and our country to thrive and 
compete in the global marketplace, we must bridge that digital divide.
    With rural broadband access, business owners will have access to 
new markets and employees; health care workers will be able access 
advanced equipment; students will be afforded new educational 
opportunities; and farmers will be able to take advantage of emerging 
technologies that will help them increase yields while conserving water 
and other natural resources.

    Senator Wicker. Thank you very much.
    Mr. Terzich.

  STATEMENT OF MICHAEL TERZICH, CHIEF ADMINISTRATIVE OFFICER, 
                       ZEBRA TECHNOLOGIES

    Mr. Terzich. Thank you, Chairman Wicker, Ranking Member 
Schatz, and members of the Subcommittee, for the opportunity to 
testify before you today.
    While many Americans may not recognize Zebra by name, they 
come into contact with our solutions every day. For example, 
the bar code labels that are prominently featured on airline 
bag tags, express delivery packages, and pharmaceutical 
prescription bottles are often generated by Zebra bar code 
label printers and tracked and managed by Zebra scanners and 
mobile computers.
    We are also global leaders in bringing enterprise Internet 
of Things, solutions to business-to-business and business-to-
government markets. With revenues of approximately $3.6 billion 
and 7,000 employees in more than 40 countries, Zebra is a 
trusted business partner with more than 95 percent of all 
Fortune 500 companies. We work with companies all across 
America, including many in rural communities.
    Zebra leads the growing category known as Enterprise Asset 
Intelligence, EAI, which describes the ability of businesses to 
track critical assets within their operation and know exactly 
what they are, where they are, and their condition so they can 
make smarter, faster decisions that improve their bottom line. 
Zebra's customers recognize that people, asset, and devices--
especially mobile devices--are becoming increasingly connected 
and that this trend is advancing at an exponential rate. A few 
key facts: By 2020, there will be 1.75 billion global mobile 
workers, accounting for 42 percent of the global workforce. By 
2020, there will be 21 billion connected devices in a global 
IoT.
    As a result, Zebra is working with companies across the 
U.S. to provide solutions that yield real-time visibility into 
their process, assets, people so that faster and more informed 
decisions can be made. Businesses, including those in rural 
America, are recognizing the transformational role of IoT 
solutions. These companies represent many sectors and deploy 
these solutions to address a variety of strategic and 
operational challenges.
    The following are some industry sector examples being put 
to use in companies across rural America. In the manufacturing 
sector, companies are adopting IoT solutions in the smart 
factory which are providing actionable visibility to the entire 
operation as well as to vendors who can help manage the supply 
chain.
    Whirlpool Corporation wanted to optimize mobile device 
management at its distribution centers. They needed a 
centralized management system to track device health, 
productivity, and ensure proper deployment. To solve these 
issues, Whirlpool began using Zebra mobile computers and 
vehicle mounted computers and Zebra's operational visibility 
service or OVS. OVS helps right-size equipment and understand 
site-by-site needs.
    For the retail industry, when it comes to the Internet of 
Things, stores are paying attention. Recent research indicates 
70 percent of retail decisionmakers are ready to make changes 
required to adopt IoT, and while 21 percent have implemented 
IoT, another 27 percent are planning to deploy within a year.
    The Bon-Ton Stores are a prime example of how retailers are 
using Zebra's IoT solutions to improve the in-store customer 
experience. Today, associates in more than 180 Bon-Ton retail 
department stores use Zebra's RFID handheld readers on a daily 
basis to streamline the display compliance process. Store 
audits revealed that with a previously used manual system, up 
to 20 percent of merchandise in certain categories might be 
missing from the sales floor during a given week.
    The RFID inventory system provides Bon-Ton with a deeper 
visibility into what merchandise is available at all times. It 
dramatically increases inventory management efficiencies by 
allowing store associates to scan and tag new merchandise as it 
first arrives in the store.
    For companies in rural America to successfully utilize 
these B-to-B IoT solutions, there is one universal and vital 
resource. They must have unfettered access to high-quality, 
high-speed broadband, both wireless and wireline. Without 
investment in broadband infrastructure in rural communities, 
companies, healthcare providers, and consumers will be left 
behind. Spectrum is the lifeblood of IoT, and that is no 
different for business IoT solutions.
    We applaud the work of this Subcommittee to examine the 
needs of companies in rural America, to ensure they reap the 
full benefits of IoT. We support infrastructure legislation 
that promotes the deployment of mobile broadband networks, as 
well as directs the NTIA and FCC to allocate more commercial 
licensed and unlicensed spectrum in a technology neutral way. 
Additionally, we urge Congress to advance policies that 
increase broadband investment and deployment in rural America.
    Zebra also supports coordination among government agencies 
to discourage overlapping government regulation of the Internet 
of Things which could impede innovation. We congratulate the 
Committee for your work to pass the DIGIT Act to help ensure 
the industry can continue to roll out new technologies to 
improve the lives of American workers.
    In conclusion, IoT presents a transformative opportunity 
for enterprise of all types and sizes all over the United 
States. The benefits of B-to-B IoT solutions are allowing 
companies to work smarter, enhance productivity, create jobs, 
and improve the overall economy. At Zebra, we are committed to 
bringing IoT solutions to companies to help them work better 
and smarter, giving them a performance edge.
    Thank you for the opportunity to share our story.
    [The prepared statement of Mr. Terzich follows:]

 Prepared Statement of Michael Terzich, Chief Administrative Officer, 
                           Zebra Technologies
    Thank you, Chairman Wicker, Ranking Member Schatz and members of 
the Subcommittee, for the opportunity to testify before you today. My 
name is Michael Terzich and I am the Chief Administrative Officer for 
Zebra Technologies. Zebra Technologies Corporation (``Zebra'') is a 
global leader in bringing enterprise Internet of Things (IoT) solutions 
to Business-to-Business (B2B) and Business-to-Government (B2G) markets. 
With revenues of approximately $3.6 billion and 7,000 employees in more 
than 40 countries, Zebra is a trusted business partner with more than 
95 percent of all Fortune 500 companies. We work with companies all 
across America, including in many rural communities.
    While many Americans may not recognize Zebra by name, they come 
into contact with our solutions every day. For example, the barcode 
labels that are prominently featured on airline bag tags, express 
delivery packages, and pharmaceutical prescription bottles are often 
generated by a Zebra barcode label printer, and tracked and managed by 
Zebra scanners and mobile computers.
    Zebra leads the growing category known as Enterprise Asset 
Intelligence (EAI) which describes the ability of businesses to track 
critical assets within their operations and know exactly what they are, 
where they are, and their condition so they can make smarter, faster 
decisions that improve their bottom line. EAI leverages and recognizes 
the fact that people, assets, and devices--especially mobile devices--
are becoming increasingly connected and that this trend is advancing at 
an exponential rate. A few key facts help illustrate this point:

  <bullet> By 2020, there will be 1.75 billion global mobile workers 
        accounting for 42 percent of the global workforce.\1\
---------------------------------------------------------------------------
    \1\ Source: Strategy Analytics as cited in Visibility That's 
Visionary, Zebra Technologies Corporation (May 31, 2016, 11:15 AM), 
https://www.zebra.com/content/dam/zebra_new_ia/en-us/campaigns/brand-
campaign/zebra-visibility-vision-report-en-us.pdf.

  <bullet> By 2020, there will be 21 billion connected devices in a 
        global Internet of Things.\2\
---------------------------------------------------------------------------
    \2\ Source: Gartner Group as cited in Visibility That's Visionary, 
Zebra Technologies Corporation (May 31, 2016, 11:15 AM), https://
www.zebra.com/content/dam/zebra_new_ia/en-us/campaigns/brand-campaign/
zebra-visibility-vision-report-en-us.pdf.

  <bullet> By 2020, there will be 44 zettabytes of data with 10 percent 
        of it coming from the Internet of Things.\3\
---------------------------------------------------------------------------
    \3\ Source: Digital Universe Study as cited in Visibility That's 
Visionary, Zebra Technologies Corporation (May 31, 2016, 11:15 AM), 
https://www.zebra.com/content/dam/zebra_new_ia/en-us/campaigns/brand-
campaign/zebra-visibility-vision-report-en-us.pdf.

    As a result, Zebra is working with companies all across the United 
States to provide solutions that yield real-time visibility into their 
processes, assets, and people so that faster--and more informed--
decisions can be made. The key elements which enable this work 
include:\4\
---------------------------------------------------------------------------
    \4\ Source: Zebra Technologies Corporation, Visibility That's 
Visionary, (May 31, 2016, 11:15 AM), https://www.zebra.com/us/en/cpn/
visibility.html.

  <bullet> Sense. The employment of unrivaled expertise in sensor and 
        device connectivity enables companies to inter-connect devices 
        to software and to mobile workers so that decision makers and 
        workers alike have substantially more real-time visibility into 
---------------------------------------------------------------------------
        operations.

  <bullet> Analyze. Equally important, the provision of easy access to 
        an unprecedented amount of data that EAI enables allows 
        companies to plan more effective short-and long-term strategies 
        by delivering real-time insights into the critical data 
        captured by the sensors in connected devices.

  <bullet> Act. The explosive growth of mobile devices across the 
        private, public, and non-profit sectors enables management and 
        workers at all levels to act on these visibility-driven 
        insights in real-time, anytime and everywhere.

    Businesses, including those in rural America, are recognizing the 
transformational role of IoT solutions. These businesses represent many 
sectors, including retail, manufacturing, consumer products, 
transportation, healthcare, government, oil/gas, and hospitality. 
Companies deploy these IoT solutions to address a variety of strategic, 
operational, and business challenges.
    The following are some industry sector examples being put to use in 
companies across rural America:
Manufacturing
    In the manufacturing sector, companies are adopting IoT solutions 
and the smart factory. Through the principles of Manufacturing 4.0, the 
smart factory calls for providing actionable visibility to the entire 
operation as well as to those vendors who can help manage the supply 
chain. Workers use a combination of RFID, wearables, automated systems 
and other emerging technologies to monitor the physical processes of 
the plant and enable companies to make decentralized decisions. In the 
factory and across the supply chain, firms are also capitalizing on the 
Industrial Internet of Things (IIoT) to achieve real-time visibility 
into their goods, assets, processes and places.
    Like other companies, Whirlpool Corporation wanted to optimize 
mobile device management at its distribution centers. Whirlpool was 
having problems with misplaced devices, battery life, the inability to 
update devices in a systematic way, and a lack of data metrics around 
device performance. They needed a centralized management system to 
track device health, productivity, location, and ensure proper 
deployment.
    To solve their problem, Whirlpool began using Zebra XT15 mobile 
computers, VH10 vehicle-mounted computers, and Zebra's Operational 
Visibility Service (OVS). The VH10 and XT15 are extremely rugged, 
reliable devices that suit the distribution center well. OVS helps 
Whirlpool and long-time Zebra partner, Industrial Service Technology 
(IST) right-size equipment and understand the needs of the pool as well 
as site-by-site needs. This combination allows Whirlpool and IST to 
sense when there could be a problem, analyze what it is, and act on a 
solution in real-time.
    As we see with the Whirlpool example, automation provides instant 
access to data which is essential to ensuring that the production 
process operates smoothly. Manufacturers are realizing the very real 
benefits of data connectivity: increased visibility into the entire 
manufacturing process; an accelerated pace in shipping and receiving; 
faster identification of points-of-failure; and deeper insights into 
the inner workings of their operations.
Transportation & Logistics
    Companies within the Transportation & Logistics (T&L) sector 
literally deliver the U.S. economy. The movement of goods and people 
across America and the globe represents the backbone of the overall 
supply chain. In T&L, the challenge continues to be how to optimize 
delivery as the average floor-loaded trailer could carry 30 percent 
more cargo. With tablet-based, trailer load analytics software, 
warehouses and fleet managers are given a clear image and the load 
statistics of each trailer, allowing them to easily track fulfillment 
and ensure cargo loads reach their full potential.
    For the movement of goods, companies must leverage IoT solutions to 
maintain visibility that is critical to customer service as well as 
quality assurance and traceability. Adherence to regulatory compliance 
requires visibility often across a complex chain of custody, and that 
visibility is gained by transforming the reality of storage, transport, 
and delivery into systems of record. For the movement of people, their 
baggage, and cargo, IoT solutions offer real-time visibility across a 
complex chain of airports, planes, carts, and baggage claim centers. In 
each of these scenarios, workers use locationing solutions with a wide 
array of purpose-built mobile computing, conditioned labels, RFID, and 
other emerging technologies to maintain real-time operational 
visibility.
    For example, ArcBest Corporation, based in Fort Smith, Arkansas, 
ships high-value, time-critical freight anywhere in the world with the 
highest level of service in the industry. To fulfill its commitment to 
supply chain optimization and premium logistics, ArcBest uses robust 
analytics data and advanced technology to develop a supply chain 
strategy for its customers to minimize cost and improve the shipping 
and logistics process. Ultimately, the power of analytics gives ArcBest 
and its customers a competitive advantage.
Retail
    The shift to IoT technologies is an industry imperative to keep 
step with the shopping habits and expectations of consumers reshaped by 
the tech revolution that's still unfurling. Digital disruption--most 
profoundly, online shopping and smartphones--has birthed ever 
connected, savvy shoppers who have the globe's grandest mall at their 
fingertips. And retailers, whether they realize it or not yet, are now 
largely catering to Millennials--who have eclipsed Baby Boomers as the 
world's largest shopping group and will comprise 75 percent of the 
global workforce by 2025. The key takeaway here: this group born 
between 1980 and 1995 marks the first generation of digital natives, 
for whom technology is second nature.
    When it comes to the Internet of Things, stores are paying 
attention: nearly 70 percent of retail decision makers are ready to 
make changes required to adopt IoT. Already, 21 percent have 
implemented IoT and another 27 percent are planning to deploy within a 
year.\5\
---------------------------------------------------------------------------
    \5\ Source: Zebra's 2017 Retail Vision Study
---------------------------------------------------------------------------
    The Bon-Ton Stores, which operates Bon-Ton, Bergner's, Boston 
Store, Carson's, Elder-Beerman, Herberger's and Younkers stores, is a 
prime example of how retailers are using Zebra's IoT solutions to 
improve the in-store customer experience. Today, associates in more 
than 180 Bon-Ton retail department stores use Zebra's MC3190-Z RFID 
handheld readers on a daily basis to streamline the display compliance 
process and know with certainty that all available merchandise is on 
display.
    As soon as associates arrive in the morning, they scan the selling 
floor using the MC3190-Z readers to compare items on display against 
on-hand inventories, helping them identify missing items that should be 
on the sales floor. Store audits revealed that with the previously used 
manual system, up to 20 percent of merchandise in certain categories 
might be missing from the sales floor during a given week, resulting in 
missed sales opportunities.
    The RFID inventory system provides Bon-Ton with deeper visibility 
into what merchandise is available at all times. It dramatically 
increases inventory management efficiencies by allowing store 
associates to scan and tag new merchandise as it first arrives in-store 
so it can be immediately placed on display, leading to quicker item 
availability for shoppers and increased sales.
    In rural America, retailers are seeking better ways to bridge their 
online presence with traditional brick-and-mortar stores through cross-
channel selling. Having the ability to collect information, at every 
point whenever data changes status--from the manufacturer, through the 
distributor, to the sales floor--is significant. Coupling this data 
with sales and marketing metrics collected from fixed point-of-sale 
(POS) devices and smartphones can pay big dividends in driving customer 
loyalty programs. When properly implemented, retailers can link their 
smart devices together with their data center and capitalize on each 
facet of Big Data.
Healthcare
    Heavily regulated and moving to further digitization, the 
healthcare industry faces major hurdles in the drive to improve patient 
safety, enhance worker efficiency, and control costs. Electronic health 
records (EHRs) adoption paves the way for maintaining detailed, 
accurate, and life-long individual patient records. In addition, 
medical facilities leverage RFID tags to achieve 100 percent asset 
visibility, which helps reduce theft, optimize response times and 
improve asset utilization by medical staff.
    With the right IoT solution, healthcare professionals can integrate 
with EHR systems, minimizing medication and laboratory errors, while 
maximizing patient safety and improving the quality of care. One 
example is our work with Avera Health, an integrated health system 
based in Sioux Falls, serving South Dakota and surrounding areas of 
Minnesota, Iowa, Nebraska and North Dakota. Avera Health serves a 
population of nearly one million people through 33 hospitals, 208 
primary and specialty care clinics, and 40 senior living facilities. 
Based on our partnership with Voalte, Zebra's technology is being used 
by Avera Health to improve patient outcomes by integrating voice calls, 
text messaging, and alarm and alert notifications on one enterprise 
smartphone platform. These technologies also work to improve the 
discharge process to speed patient throughput, streamline the 
medication order process and optimize alarm management to ensure 
patient safety.
B2B IoT Solutions Depend on Access to High-Speed Broadband
    For companies in rural America to successfully utilize B2B IoT 
solutions, they must have unfettered access to quality high-speed 
broadband, both wireline and wireless. Without investment in broadband 
infrastructure in rural communities, companies, healthcare providers, 
and consumers will be left behind. Spectrum is the lifeblood of IoT, 
and that is no different for business IoT solutions.
    We urge this subcommittee and the full Committee to support 
infrastructure legislation that promotes the deployment of mobile 
broadband networks, as well as directs the NTIA and FCC to allocate 
more commercial licensed and unlicensed spectrum in a technology 
neutral way. Additionally, we urge Congress to advance policies that 
increase broadband investment and deployment in rural America.
    Zebra also supports coordination among government agencies to 
discourage overlapping government regulation of the Internet of Things 
which could impede innovation. We congratulate the Committee for your 
work to pass the DIGIT Act, and thank you for your efforts to ensure 
that industry has the ability to continue to roll out new technologies 
to improve the lives of American workers.
In Conclusion
    IoT presents a transformative opportunity for enterprises of all 
types and sizes all over the Unites States. The benefits of B2B IoT 
solutions are allowing companies to work smarter, enhance productivity, 
create jobs and improve the overall economy. At Zebra, we are committed 
to bringing IoT solutions to companies to help them work better and 
smarter, giving them a performance edge. Thank you for the opportunity 
to share our story.

    Senator Wicker. Thank you very much.
    Our next witness is Angela Siefer. Is that correct--Siefer?
    Ms. Siefer. Yes, sir.
    Senator Wicker. Ms. Siefer, tell us about your organization 
and digital inclusion.

        STATEMENT OF ANGELA SIEFER, EXECUTIVE DIRECTOR, 
              NATIONAL DIGITAL INCLUSION ALLIANCE

    Ms. Siefer. Thank you. My name is Angela Siefer. I 
appreciate Chairman Wicker and Ranking Member Schatz and all of 
you for having me here today.
    I am the Executive Director of the National Digital 
Inclusion Alliance. We are a unified voice for digital 
inclusion programs and policies. By digital inclusion, we are 
referring to public access, home access, digital literacy 
skills, appropriate devices, and tech support. It's incredible 
that you all are wrapping in the broadband issue with IoT 
today. I think that's fabulous.
    I grew up outside of Lima, Ohio, which is about an hour 
from Dayton. My father passed away about 5 years ago, and he 
had this device from the VA. It was a precursor to an IoT, and 
what it did was take his vitals. He had COPD, which means that 
he couldn't breathe. So when they would take his vitals, 
multiple times, a nurse--whoever knows where that nurse was, 
right--would see that he was in distress and call the squad.
    So that device, that precursor to an IoT, saved his life 
multiple times, and what that gained for us was time with my 
dad, and it allowed him to live at home instead of someplace 
else. But none of that would have been possible without 
broadband. He had broadband connection in his home. The device 
was connected to the broadband.
    So as you all are figuring this out--as we as a country are 
figuring out IOT, we have to look at the broadband and not just 
the infrastructure but the adoption, and it's fabulous that 
that was brought up multiple times today, because we have to 
have both in order to get anywhere.
    The biggest issue that we have right now is that we don't 
have a unified strategy. So there are a handful of programs for 
infrastructure, Federal programs. I can tell you there are no 
functioning broadband adoption Federal programs right now. I 
would like to tell you otherwise, but that's not true. We need 
both. We need a Federal strategy that addresses infrastructure 
and addresses adoption, and we need to do it together. We can't 
just say one and then the other. So we have to address them 
both.
    The very first thing we can do--because that's a really big 
ask. I understand that. The first thing we can do is figure out 
the data. Right now, the data that we have is--mostly, what we 
use is from the FCC. It's functional. It tells us who has what 
data. But if you ask anyone in the field if it's accurate, no, 
it's not accurate. That's a huge problem.
    So the FCC has recently asked for comments on their Form 
477 data. That's great. That needs to seriously change, how 
they bring in that data, because that's the first step, because 
having the data is what gets us to the maps, and that's both 
important nationally and locally. So I ask you to consider that 
we all could work together to figure out a strategy for getting 
to the IoT, in order to get to the strategy for IoT, that we 
get to a broadband strategy.
    Thank you, sir.
    [The prepared statement of Ms. Siefer follows:]

       Prepared Statement of Angela Siefer, Executive Director, 
                  National Digital Inclusion Alliance
    Chairman Wicker, Ranking Member Schatz, and Members of the 
Subcommittee, thank you for the opportunity to be here today on behalf 
of the National Digital Inclusion Alliance (NDIA) and our 285 
affiliated organizations.
    NDIA represents leaders of local community organizations, public 
libraries, municipalities and other institutions working hard to reduce 
digital disparities among neighbors. To improve the daily lives of all 
community members, NDIA calls for digital inclusion public policies 
that reflect our affiliates' expertise and diverse experiences.
    NDIA's approach is based in the knowledge that broadband adoption 
is most effectively promoted by community-driven efforts combining:

  <bullet> Affordable home broadband service.

  <bullet> Public broadband access.

  <bullet> Appropriate affordable devices.

  <bullet> Locally trusted technology training and support.

    NDIA represents organizations with a wide range of experience 
reducing the digital divide in the United States. The experiences of 
our affiliates include providing guidance to low-income parents 
connecting to their children's teachers, teaching seniors how to use 
their electronic health records, helping veterans learn digital skills 
in order to acquire a job, and enabling disabled adults to participate 
more fully in their communities. The services of our affiliates include 
digital literacy training, public Internet access, home broadband 
programs and digital inclusion advocacy.
    NDIA currently counts 285 affiliated organizations, including 39 
national nonprofits and 210 local public and nonprofit organizations in 
37 states, the District of Columbia and the U.S. Virgin Islands. Our 
local affiliates include 23 municipal government bodies, 39 local 
public libraries and regional library councils, 14 college/university 
programs, 10 state government agencies, 3 local school districts, 7 
housing authorities and 114 local nonprofit organizations. The full 
list of NDIA affiliates with links to their websites can be found at 
https://digitalinclusion.org/members.
    The members of this subcommittee clearly recognize the incredible 
impact IoT can and will have on the U.S. economy and our residents.
    My father passed away five years ago. He had chronic obstructive 
pulmonary disease. I grew up outside of Lima, Ohio. The closest VA 
clinic to my parents was in Dayton, Ohio, about an hour away. The VA 
provided my dad with a device that measured his vitals, including his 
oxygen levels. The device used my parents' Internet connection. I have 
no idea where the nurse was but somewhere, a nurse reviewed the data 
from the device. When necessary, the nurse called the squad for my dad. 
That device, a precursor of the IoT, saved my dad's life multiple 
times. It bought my family time with him. And it allowed him to live at 
home. That would not have been possible without an Internet connection.
    But in order for the U.S. to have an IoT strategy that benefits all 
Americans, we must understand the barriers to broadband adoption.
    The FCC's ``2016 Broadband Progress Report'' found that 10 percent 
of all Americans (34 million people) lack access to 25 Mbps/3 Mbps 
service. 39 percent of rural Americans (23 million people) lack access 
to broadband service as the FCC defines it--25 Mbps/3 Mbps.\1\
---------------------------------------------------------------------------
    \1\ Federal Communications Commission. ``2016 Broadband Progress 
Report''. January 29, 2016. https://www.fcc.gov/reports-research/
reports/broadband-progress-reports/2016-broadband-progress-report
---------------------------------------------------------------------------
    These numbers tell us how many Americans lack access to broadband 
service. But just because service is available to the home does not 
ensure the resident has subscribed to it, or can subscribe. We know the 
greatest barriers to home broadband adoption beyond the infrastructure 
itself are cost of the service and digital skills.
    Pew Research Center tells us that in 2016, 73 percent of urban U.S. 
adults used broadband at home. This drops to 63 percent for rural U.S. 
adults.\2\ Neither is acceptable. We are beyond discussing whether or 
not home broadband is essential today. Now we must discuss how we 
ensure all Americans have affordable home broadband and digital skills 
in order to not only make the most of the Internet on a computing 
device but to also make the most of IoT. The more of us purchasing and 
using IoT, the more valuable those IoT are.
---------------------------------------------------------------------------
    \2\ Pew Research Center. ``Internet/Broadband Fact Sheet''. January 
12, 2017. http://www.pew
internet.org/fact-sheet/internet-broadband/
---------------------------------------------------------------------------
    Right now, efforts to address lack of infrastructure and cost of 
broadband service and digital skills trainings are local. The Federal 
government has a handful of programs addressing infrastructure, but 
those efforts are operating without a cohesive Federal strategy.
    I can say without a doubt, we have no substantial Federal programs 
addressing either the cost of broadband or digital skills. The United 
States needs an organized Federal strategy to increase broadband access 
and adoption.
    There has been a consistent 10-15 percent gap in adoption rates 
between rural and urban areas going back to the early 2000s. Research 
shows rural broadband adoption (not just access) is crucial for 
improved economic outcomes.\3\
---------------------------------------------------------------------------
    \3\ Brian Whitacre, Roberto Gallardo, and Sharon Strover. 2014a. 
``Broadband's Contribution to Economic Growth in Rural Areas: Moving 
towards a Causal Relationship.'' Telecommunications Policy 38(11): 
1011-1023. http://www.sciencedirect.com/science/article/pii/
S0308596114000949
---------------------------------------------------------------------------
    The first step toward such a strategy is to improve access and 
adoption data. Let's start with the FCC's basic data source--Form 477.
    NDIA recently took the opportunity to submit comments in response 
to the FCC's Further Notice of Proposed Rulemaking ``In the Matter of 
Modernizing the FCC Form 477 Data Program''. A copy of those comments 
is submitted with these remarks. To summarize them very briefly:

  (1)  The FCC's Form 477 process has a significant problem with the 
        way it collects fixed broadband deployment information. 
        Providers are required to report, for each technology used in 
        each Census block, only the Maximum Advertised Download Speed 
        and Maximum Advertised Upload Speed available to any 
        residential customer in the block. Of course, that lucky 
        maximum-speed customer isn't necessarily typical of the 
        neighbors. This method has the effect of exaggerating the 
        speeds available to most households in both urban and rural 
        communities. It's a serious impediment to our realistic 
        understanding of the state of broadband access throughout the 
        U.S. NDIA suggests a simple fix: Form 477 should require each 
        provider to list, for each home broadband technology deployed, 
        the speed tiers provided via that technology to households in 
        each block, and the number of households in the block for which 
        each tier is the maximum available.

  (2)  Form 477 also provides the only localized information we have on 
        actual household broadband adoption, in the form of Census 
        tract-level fixed broadband subscription counts used to create 
        the FCC's Internet Access Services mapping data. NDIA suggested 
        two modest changes in the FCC's collection and reporting of the 
        provider subscription data incorporated in the Internet Access 
        Services reports: Collect household totals for each tract at 
        three or four meaningful speed benchmarks, not just the current 
        200 kbps and 10 mbps thresholds; and publish those totals as 
        actual percentages of total households, rather than the 
        unnecessarily broad ranges now in use.

    The point of these recommendations is the need to improve the 
accuracy and usefulness of the broadband deployment and adoption data 
that the FCC collects, maps, and reports to us all--the data that 
informs public discussion of the Nation's progress in making both the 
Internet of Things and the Internet of People available to us all.
    With better public data on both topics--and a clear understanding 
that the Internet of Things isn't likely to make its way into homes 
that either can't access or can't afford conventional broadband 
connections--NDIA is certain we have a much better chance of making the 
benefits of IoT available to all Americans, rural and urban alike.
    I must stress, again, the need for the U.S. to have a cohesive and 
funded broadband access and adoption strategy.
    Thank you.
                               Attachment
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Senator Wicker. Thank you very, very much.
    I will now recognize members for questions, using the five-
minute rule, and I will defer to later and recognize Senator 
Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman. Thank you for 
convening today's hearing to discuss the importance of 
technology and innovation that's driving the development of the 
Internet of Things across all sectors of our economy.
    Chief among the industries supplying IoT innovations is 
production agriculture. Farmers and ranchers face high levels 
of risk that range from extreme weather conditions to 
fluctuating commodity markets. To counteract these challenges 
and remain competitive, ag producers rely on technological 
advancements to continue to provide for their families and also 
to feed a hungry world.
    Today, I want to welcome Tim Hassinger, CEO and President 
of Lindsay Corporation, which is located in Omaha, Nebraska. 
While Mr. Hassinger is not new to production agriculture, he is 
new to Lindsay. He has been CEO a little less than a month. 
Prior to joining Lindsay, he was President and CEO of Dow 
AgroSciences. I want to thank him for testifying today about 
the technological needs of our nation's farmers.
    Lindsay Irrigation System manufactures Zimmatic center 
pivots, which dot our Nation's countryside and provide 
essential natural resource enhancement capabilities. Nebraska 
is rich in groundwater, thanks to the Ogallala Aquifer. 
Innovators like Lindsay provide our ag producers with the 
resources and tools necessary so that they can maximize yields, 
safeguard the soil, and better manage our pressure water 
resources. Access to technology has become the number one 
driver to accelerate ag producers into the future, and today's 
rural areas experience increased productivity due to the 
adoption of new technologies that are fueling U.S. agricultural 
growth.
    However, many producers still lack access to basic Internet 
and broadband technologies, and that leaves them at a 
competitive disadvantage. While we cannot be data rich, we seem 
to be information poor, and it's important that we provide our 
ag producers and our leading innovators like Lindsay the 
connectivity and the tools that they need.
    Mr. Hassinger, can you please expand on the broader picture 
of when farmers are not able to access broadband, such as 
planting and productivity, and how does this lack of 
connectivity affect when you have machine operations or machine 
to farm operations?
    Mr. Hassinger. Well, thank you, Senator Fischer, and I 
would describe your summary as well said in terms of the 
challenge in front of us. Just to bring a little more context 
to it, a recent USDA report indicates that just under 30 
percent of the farms across our rural country do not have 
access to broadband capability. So when you look at that--and 
I'll just use the technology that Lindsay has brought forward 
called Field Net Advisor, which is simply a pivot control tool 
that allows science-based recommendations to the irrigation. 
Our trials would say that that is generating roughly an 
additional $40 per acre, to put that in--again, more 
information.
    On corn trials, that was a 3 percent yield. It was reducing 
the trips over the field. It reduced the energy cost, which 
brought a $40 per acre profit. But, equally important, it 
reduced the amount of water used per acre by 17 percent. 
Senator Fischer, what that says is roughly 30 percent of our 
farmers are not getting access to that type of technology. So 
that's a competitive disadvantage for them, and this is a space 
where increasing investment is being made, and you would 
anticipate that divide would only get wider over time.
    Senator Fischer. You know, when we look at the connectivity 
that's available for broadband, especially mobile broadband, 
what kind of metrics do you think we need to consider when we 
address that network? A lot of times, we look at road miles. 
Don't you think we ought to look at acres?
    Mr. Hassinger. Well, I think absolutely. The----
    Senator Fischer. Especially in sparsely populated areas?
    Mr. Hassinger. Without a doubt. You know, here, I'm 
mentioning that roughly 30 percent of the farms that don't have 
access. The more critical metric, as you said, would be the 
amount of acres that are not covered related to that. I put 
this--I think something that's very powerful on this is at a 
time when we know--and there's a lot of talk about the need to 
increase food production--irrigated acres represent roughly 16 
percent of the total acres, but they represent 44 percent of 
the total output. So making sure that those acres, as you 
mentioned, Senator Fischer, have access to the newest 
technology becomes only even more important as we go forward.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chairman, for your courtesy.
    Senator Wicker. Thank you, Senator Fischer.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman. Thank you to all 
of the testifiers.
    Ms. Siefer, I have a question for you about the two 
rulemakings that are happening at the FCC. The first is to 
change the form, and I think there's some support for that. I 
wanted to get your comments on that.
    But the second is to redefine what broadband is, and I want 
to make sure the Committee understands what the FCC is doing. 
They're redefining broadband from 25 down, 3 up--please nod if 
I'm getting that right--yes--25 down, 3 up, to 10 down, 1 up. 
So what they're doing is just--they're going to redefine 
broadband so that they can declare that more people have 
broadband now. But all they're doing is playing with words as 
opposed to helping people to get access to broadband.
    I'm wondering if you can comment on both of those 
rulemakings, Ms. Siefer.
    Ms. Siefer. Senator Schatz, I'll be happy to. The change in 
the speed is really significant for IoT. If anything, IoT means 
we're going to need more speeds, not less speeds. The issue 
related to the 25-3 down to 10-1 is inclusion of mobile in that 
definition. But mobile comes with data caps. As mentioned 
earlier, mobile is not a solution, at least not currently, 
until we could not have data caps. Ask any farmer if data caps 
are useful, right, and they'll be very frustrated with the 
question.
    Senator Schatz. Is there any community of users of IoT or 
broadband that is pushing for this change from 25-3 to 10-1? 
I'm just wondering who's asking for this change? Why is this 
change being made?
    Mr. Adcock, I wanted to, first of all, thank you for 
everything you've done on----
    Senator Wicker. Does anyone wish to volunteer to answer 
that question?
    Mr. Terzich. Senator, I was just going to add I'm not aware 
of anyone that's asking for that, specifically. Quite frankly, 
it's a bit illogical, given the density and the information 
exchange requirements on a go-forward basis.
    Mr. Hassinger. I would just add that I share the same view. 
From a farming community, I'm not aware of any push for 
reclassifications, as you mentioned.
    Senator Schatz. Anybody else?
    [No verbal response.]
    Senator Schatz. Mr. Adcock, my favorite topic--telehealth. 
We've been working together with Senator Cochran's staff and 
you and the University of Hawaii, and we're making good 
progress. Just a big picture question: What should the 
Congress--I know we worked together on amending the statute to 
allow Medicare to reimburse for telehealth services, and that's 
for another committee to consider. But what, in terms of the 
deployment of broadband, do you think is the next step that 
either the FCC or this committee should undertake?
    Mr. Adcock. Thank you very much, and it has been a pleasure 
to work with you and different Members of Congress to try to 
advance telehealth. We have great need in Mississippi. I know 
that there's great need across the country. I would say that 
the deployment of broadband is extremely important.
    While there are things that we can do--remote patient 
monitoring--there are things that we can do that don't require 
video, constant video. As the technologies advance and as the 
adoption increases with physicians and providers across the 
country, there's going to be more and more done in a patient's 
home, including video visits. While that's happening now, it's 
not happening with a great spread across the country.
    So we need to be able to have high-speed Internet in a 
patient's home that's reliable. It's not just about getting the 
capabilities there. It's about making sure that it's reliable 
and available. You can have as much connectivity into the home 
as you want. If it's not available at the time that it's 
needed, it's not going to help the patient. So we have to be 
able to have that priority of usage.
    I think that the Rural Wireless Act and also the SPEED Act 
will help some of the deployment, to streamline review, 
accelerate deployment. Anytime that we can decrease the time 
that it takes to get the infrastructure out into these 
communities that have lower population density, that decreases 
cost and actually increases deployment, and being able to 
standardize that data reporting will help distribute funds to 
areas that are in need. So there's----
    Senator Schatz. A quick final question for Mr. Terzich. Do 
you think there should be minimum security standards for IoT 
devices, and do you think that should be set in statute or 
rule, or do you think that should be done primarily by the 
private sector?
    Mr. Terzich. Well, you know, I'm not in a position to 
comment on the legislative side of that question. But I would 
offer the following. You know, for us, we're principally a B-
to-B organization, and security is always a central part of the 
equation with our enterprise customers. I do believe, however, 
that at the consumer level, on the B-to-C side, that with the 
proliferation of interconnected devices, that some 
standardization should be applied, because I do see the 
consequential risk associated with broad proliferation of those 
devices across cloud-based computing capability.
    Senator Schatz. Thank you very much.
    Senator Wicker. I have next Senator Gardner followed by 
Senator Moran.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman, and thank you for 
this hearing today. Thanks to all the witnesses and your 
statements this morning.
    Thanks as well to Mr. Armitage, who joins us today from the 
great state of Colorado, where it's snowing a little bit, and 
we do, as a reminder to the Committee, have some ski resorts 
that are open right now.
    [Laughter.]
    Senator Gardner. The Internet of Things is quickly 
transforming the way that we do business, go about our daily 
lives, and interact with our surroundings. As a member of the 
Internet of Things Working Group with Senators Fischer, Schatz, 
and Booker, I had the opportunity to work to promote 
legislation like the DIGIT Act, which some have already spoken 
about today, to encourage public-private collaboration on IoT 
related issues and prepare for the exciting future that these 
products really do mean for us.
    While we should continue expanding and encouraging 
development of IoT, we must also be mindful of the security 
concerns, as Senator Schatz has talked about, which is why 
Senator Warner and I introduced the IoT Cybersecurity 
Improvement Act of 2017. Smarter devices should contain smart 
advancements in secure technology, and the Federal Government 
should set the gold standard for basic cyber hygiene. I do 
think it's an important conversation that we have, and Senator 
Schatz stumbled upon the question when he talked about setting 
the standards at the Federal level versus having that driven by 
the private sector, perhaps guided by a Federal procurement 
process.
    One warning that this body has to consider is when Congress 
tries to set a standard and define the technology. We have to 
be careful that the technology doesn't evolve to a point where 
it backfires on us. A perfect example being in Colorado, where 
we created a criminal statute on Internet luring of a child 
using a Blackberry, and a judge determined that a Blackberry 
did not have the computing capability to be defined as a 
computer, and, therefore, the statute was no longer able to be 
applied in that instance. The case had to be dropped because we 
tried to define a technology, and a judge thought that we 
didn't actually get it right.
    We have to be very careful when we're defining technology 
in a statute, and that's why the approach that we've taken is 
sort of a procurement level process that tries to drive private 
sector innovation. I'm excited that we have a group of 
individuals here today that can explain the benefits of IoT to 
our communities, and I look forward to having many more 
conversations with you.
    Mr. Armitage, you mentioned in your testimony the need for 
connectivity along with routes that your oil and gas company 
partners travel on a daily basis. You also talk about efforts 
to enhance that connectivity through partnerships and 
collaboration with the wireless industry. Could you talk a 
little bit more about this point? Obviously, Ms. Siefer talked 
a little bit about the challenges between mobile wireless 
issues and broadband availability. Do you view the business 
need for IoT in rural areas as a catalyst for expanding rural 
broadband and connectivity? I guess it's kind of a chicken and 
the egg kind of question, so to speak.
    Mr. Armitage. Mr. Hassinger brings up a very important 
notion that we should be really evaluating, at least in the 
context of the industrial IoT, which is the availability of 
broadband connectivity in a per-acre as opposed to per-road 
network. When we look at the coverage on the Nation's road 
networks and around the population centers, it's stunning. But 
when we look at the coverage available out in remote and rural 
areas off of those roads, it's pretty dead out there.
    There's no question that the work this committee can do to 
encourage and enhance the private sector to push more and more 
coverage and more and more bandwidth into those areas is 
critically important to the viability of agriculture, the 
economic prosperity of the energy industry, and many, many 
other sectors.
    One thing that I think is interesting to consider is that 
the FCC should be encouraged, in my opinion, to open up more 
frequency, more bandwidth spectrum to push more wireless 
coverage into these remote areas. It's not always economically 
viable to string wires and pull fiber into remote fields, but 
it is absolutely true that enhanced high-speed cellular 
networks will serve as a catalyst for everything that this 
group up here is talking about today.
    Senator Gardner. Thank you, Mr. Armitage. I know Senator 
Hassan and I are working on legislation that would make more 
spectrum available across the country, and it would also take a 
unique approach that I hope this committee takes very 
seriously. When we raise the funds through the auction that 
this spectrum would require, it would take about a 10 percent 
chunk of that and set the money raised through that spectrum 
auction, and make it available for rural broadband deployment. 
I think that could be a significant benefit for this closing of 
the digital divide that we've talked about and the challenges 
we face.
    I can guarantee you that while the cellular phone map shows 
that south of Yuma, Colorado, there is cell coverage between 
Yuma and Joes, Colorado, by the time you hit Smith Dairy into 
Abarr, Colorado, and you go down to Joes and Kirk, you do not 
have cell coverage. I know that means absolutely nothing to 
anybody here. However, for those of us who look at a map and 
say we should have coverage, it means a whole lot.
    Mr. Hassinger, you and I may be the only people in this 
room, particularly, maybe even in this Congress, who have made 
a living selling farm equipment. We have a Zimmatic sprinkler 
on our farm north of town. We sell Case IH farm equipment. We 
started out with our first--I guess we sold a subscription, a 
satellite subscription, for a GPS system, and then we moved 
from that to try to use the Coast Guard beacons. We're too far 
away from the Coast Guard beacons in eastern Colorado to use 
them, so we now have our own signal.
    You know, you're not going to be able to run a sprinkler 
some day when you manually change the drop nozzles, or the drip 
nozzles, on a sprinkler if you're going to have an IoT device 
applying individual amounts of chemigation to an individual 
plant. You're going to have to have broadband capability to do 
that. I'm running out of time. It's exciting stuff, and we've 
got a lot of work to do.
    Mr. Hassinger. I would echo exactly what you said.
    Senator Wicker. Thank you, Senator Gardner. Senator Schatz 
wanted to point out that in Hawaii, it's currently 85 degrees.
    [Laughter.]
    Senator Wicker. There is some mountain in Hawaii that has 
snow.
    Senator Schatz. I'm sorry--75. The sun is not out yet.
    Senator Gardner. The skiing in Haleakala is just not that 
good.
    [Laughter.]
    Senator Wicker. Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Kansans are always delighted when there's 
snow in Colorado, assuming that the water will then come to our 
state.
    Let me start with Mr. Hassinger. A bit of follow-up to 
Senator Gardner. You said in your commentary that 30 percent of 
our farms are not getting that technology. Is that a Nebraska 
statistic? Based upon this conversation we're having about how 
we determine who has broadband and who doesn't, how does one 
reach that conclusion or that specific number?
    Mr. Hassinger. Senator, first of all, to the earlier 
comment, that's a definition as it was described as 25 down and 
3 up, from that standpoint. Let me give you the specific 
source. It is from USDA. Specifically, the National 
Agricultural Statistics Service released its Farm Computer 
Usage and Ownership Report in August, and that's where that 
data is coming from. Just slightly under 30 percent of the 
farms do not have that access, under the definition that I just 
described.
    Senator Moran. It didn't lend itself to a definition of 
farms, which is an agriculture question. I see your equipment 
in Kansas a lot. I'm familiar with Lindsay Corporation. I would 
highlight for my colleagues on the Committee that our 
Subcommittee on Consumer Protection and Data Security will have 
a hearing next Tuesday, November the fourteenth, to focus on 
data usage practices specifically for farms and innovative 
opportunities to improve yield, sustainability, and 
interconnection among our rural farmers. We're continuing this 
conversation.
    I wanted to ask you, Mr. Hassinger. What is the most 
prominent challenging barriers to successfully connecting rural 
communities and farms to high-speed broadband? What are the 
programs? In the FCC, we would have Universal Service Fund; 
USDA, we'd have Rural Development dollars. What is it that the 
Federal Government is not doing that Congress needs to do?
    Mr. Hassinger. Senator, I feel very comfortable 
representing where the value and the opportunity is in front of 
us. I'm going to have to pause and say that my expertise and 
knowledge in terms of how to exactly solve it is still further 
behind, from that standpoint. So what I really want to 
reinforce is the value that I can see through the technology 
that companies like ours is bringing and the need for it. But 
I'll have to pause on answering specifically your question.
    Senator Moran. Let me also ask you a question about 
something you said. Are 16 percent of the acres that are 
irrigated represent 44 percent of the yields? Is that a 
Nebraska or is that a national statistic?
    Mr. Hassinger. No, that's a national number also.
    Senator Moran. Thank you very much.
    Let me ask you a question, Ms. Siefer. In regard to 
veterans' issues, what you described with your father is very 
compelling. I understand the value of that circumstance. What 
role did the VA play in your father's capability to access that 
technology, if any?
    Ms. Siefer. Right. So the VA's role was to bring him the 
device, and then I hooked it up, and that was 5 years ago. So 
the VA today--I would hope--frankly, they're not very 
communicative--maybe that will change shortly--about their 
broadband efforts. But I would encourage them to have efforts 
where they are making sure that the individuals that they're 
working with do have access at home, not just for the health 
reasons, the health IoT, but jobs and economy and everything 
else.
    Senator Moran. Ms. Siefer or Mr. Adcock, do you have any 
understanding of the differences between the private sector and 
the VA in regard to what they're doing to provide in-home 
healthcare through technology? Is the private sector ahead of 
the VA?
    Mr. Adcock, any sense of that?
    Mr. Adcock. I would say that the VA is a leader in 
telehealth, obviously. I can tell you about our program. We 
actually--when we're doing remote patient monitoring, we go in 
and check the cell signal in the home where it's going to be 
used to make sure that it's going to qualify for being able to 
utilize the equipment. So we make sure that that cellular 
service is available by utilizing the local providers and the 
regional providers in our state.
    And if, for some reason, it's not available, we work to try 
to see if there's a wired option available. If that's not 
available, we talk to the service providers and let them know 
where there are coverage lapses so that we can look down the 
road to be able to enhance that coverage. I will tell you that 
because of remote patient monitoring not needing as much of the 
high speed, we're able to deliver that service in more areas 
throughout the state.
    Senator Moran. When you say more areas--Mr. Hassinger and I 
talked about the 30 percent of acres not--the broadband, the 
technology, not available. What's your experience for when this 
service is not available to patients who need it because of 
lack of service?
    Mr. Adcock. For remote patient monitoring, again, it can 
run on a 3G connection, so there are very few patients that 
we've come across, probably less than 1 percent, that cannot--
that we can't use our remote patient monitoring solution on. 
Now, if you start talking about being able to do video visits 
into the home, which is coming, we're going to run into a lot 
more issues, a lot more connectivity issues in the homes. Right 
now, we're able to meet most of those issues, whether it's in 
the home or in the school, wherever it might need to be.
    Senator Moran. Do you have a sense of what percentage would 
be unable to have video?
    Mr. Adcock. I do not at this point, but that's something I 
can look at and get back to you.
    Senator Moran. Thanks to all the panelists for your 
testimony.
    Senator Wicker. Thank you, Senator Moran.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    I'm one of the co-chairs of the Broadband Caucus. We've 
been working really hard, especially to try to get 
infrastructure funding in any kind of an infrastructure bill 
that could come across our desk. I know that the President 
pledged to make infrastructure a priority, and we think rural 
broadband should be a major part of that.
    So, Mr. Hassinger, I was just in Winnebago, Minnesota, on 
Friday and saw a company called Aker Ag, and they're doing some 
incredible work with drones and looking at being able to get 
soil samples out, and then being able to figure out in a better 
way for the environment, but also a more cost-effective way for 
our farmers--former Congressman Tim Penny was with me there. 
He's helped--his foundation has helped fund some of this 
operation. It just made me think about--this is all going to be 
great, but if they don't have broadband to get the data, to 
report it back to the companies that are supplying these 
farmers, it's not going to work.
    So could you talk about this precision ag that we're 
heading into now and how important it's going to be to have 
real-time data updates and reliable service for our farmers?
    Mr. Hassinger. Well, Senator, I'll go back and hit the key 
points that I said earlier, and, again, I'm just using one 
example, the Field Net Advisor. But a $40 per acre profit--on 
average, is what we're seeing--is a significant difference, and 
only to your point, the investment is increasing there, so you 
would expect that divide to get greater as we go forward. I 
think it's a fundamental competitiveness that, longer term, is 
going to be a significant challenge if these farms that are not 
having access to this broadband capability--it's going to 
really put them at a disadvantage.
    Senator Klobuchar. Exactly. And I think there is also--for 
a lot of my friends on the Committee that are focused on 
environmental issues as well, there is a major advantage to 
that for where they put pesticides, or how much water they put 
in, if they're able to measure that soil to make it better, and 
they can't do that if they don't have that information.
    Mr. Hassinger. Absolutely. And, Senator, I would just add 
that at a time when farms are getting bigger, and the need for 
managing those larger acreages, this type of technology only 
becomes even more important also.
    Senator Klobuchar. OK. Very good.
    I introduced the Measuring the Economic Impact of Broadband 
bill, including--I think Senators Capito and Sullivan worked 
with me on that, and this focuses on a study out of the 
Department of Commerce to conduct an analysis of the effects of 
broadband deployment and adoption on the U.S. economy.
    Ms. Siefer, how would that be helpful for organizations 
like the National Digital Inclusion Alliance to reduce this 
divide?
    Ms. Siefer. Having that data would help us convince 
funders, frankly, because that's the big challenge right now. A 
lot of folks will say, ``Yes, we definitely need broadband. We 
need folks who know how to use it.'' But then when you turn to 
figuring out who it is that's going to pay for it, that's a 
little more challenging, because they want the end numbers. 
They want to know did someone get a job. So that study could 
help that argument in making sure that we do have adequate 
funding for the programs.
    Senator Klobuchar. Maybe it'll help here, around this 
building, too.
    Mr. Adcock, recently, Senators Roberts and Moran and I led 
a letter with 39 Senators urging the FCC to continue advancing 
broadband deployment in rural communities through the USF fund, 
the Universal Service Fund, and we've seen some progress, but 
not enough. Could you talk about the Universal Service Fund, 
how that's helped in Mississippi, and have you seen price 
disparities for broadband service between rural and urban 
areas?
    Mr. Adcock. Thank you very much. Yes, we have been active 
in the Universal Service Fund for quite a while, where we--
we've based ourselves in the hub to lots of the other sites 
across the state, and it's allowed us to not only build 
infrastructure, but also decrease the cost of that wireless 
that's--I mean, the broadband that's available to those 
institutions. I do not have an exact dollar figure of how much 
those funds have helped, but it has been a great program that 
we continue to be interested in. As far as the disparities in 
rural versus urban, I do not have the answer to that question.
    Senator Klobuchar. Well, I think we have to modernize the 
Universal Service Fund. Some work has been done at the FCC, but 
not enough----
    Mr. Adcock. Right.
    Senator Klobuchar--and there's a ton of money in there, and 
then we have these rural areas that basically--while they now 
have Internet, they don't have the kind of Internet in many 
places in my state that's going to allow them to compete, as 
was just pointed out.
    I will leave my question on Chairman Wicker's Rural 
Wireless Access Act for the record. I don't want to go over my 
time. But I'm a co-sponsor of that bill and it's very 
important. So thank you.
    Senator Wicker. And thank you, Senator Klobuchar.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chairman.
    Good morning to all of our witnesses. Thank you so much for 
being here this morning, and thank you for shining a light on 
the importance of this so-called Internet of Things to rural 
communities. It is clear from your testimony that the Internet 
of Things will bring major positive changes all across our 
country, and I'm certainly eager to see the benefits to our 
society and our economy.
    Coming from a state with many rural areas that New 
Hampshire has, I am also very concerned about the broadband 
issue, that last mile issue, and I wanted to take the 
opportunity--if you all don't know it and if my colleagues 
don't know it--Commissioner Rosenworcel on the FCC has an e-
mail address, broadband
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="92f4f3fbfed2f4f1f1bcf5fde4">[email&#160;protected]</a>, where people can report in their lack of 
broadband access, because she thinks it's about time, as do I, 
that we crowdsource this rather than waiting on the census 
block maps which are so inaccurate. So I would encourage 
constituencies everywhere to report in whether they've got 
broadband or not in certain areas.
    Toward that end--no, it's not just broadband. It's 
obviously access and availability of spectrum that is going to 
be so important as we deploy more and more of the IoT. So I 
joined with my friend, Senator Gardner, to introduce the 
AIRWAVES Act, which aims not only to get some funding for rural 
broadband, but also to free up more spectrum. The legislation 
creates a pipeline of spectrum so that industry has something 
to rely on as we move forward.
    So I'd love your comments to the Committee on the 
importance of the availability of spectrum for IoT as well as 
the importance of having an abundant supply of both licensed 
and unlicensed spectrum for these devices to function. We can 
start with Mr. Adcock and just work right down the line.
    Mr. Adcock. I don't have an answer to that at this point. 
I'm sorry.
    Senator Hassan. That's fine.
    Mr. Armitage.
    Mr. Armitage. We currently process at Cartasite over 3,000 
events per second from 34 countries. I can tell you that in the 
United States, more than 10 percent of the workers' time is 
spent outside of coverage areas--10 percent. This is an 
enormous amount of our country that is currently not covered by 
spectrum, by any cellular coverage at all. We don't see it when 
we drive down the nation's highways. We absolutely see it when 
we drive in these rural areas of the U.S. So we can provide 
some very interesting insight as to where that coverage is 
lacking right now.
    Senator Hassan. Thank you.
    Mr. Hassinger.
    Mr. Hassinger. Senator, I don't have anything further to 
add.
    Senator Hassan. OK. Thank you.
    Mr. Terzich. Senator, I would just make a simple statement 
that says both across spectrum and broadband, in general, that 
for our business, for our enterprise customers, it's, quite 
frankly, table stakes. You absolutely can't enable some of the 
business, the B-to-B benefit. You can't enable the exchange of 
real-time information without having this capability.
    Senator Hassan. Thank you.
    Ms. Siefer.
    [No verbal response.]
    Senator Hassan. Well, then, the other thing I wanted to 
just explore a little further with all of you is concerning 
cybersecurity. It's estimated that 8.4 billion things will be 
used this year alone, which opens up a lot of risk, and as you 
probably all know, in New Hampshire, a company named Dyn, Inc., 
knows all too well how this risk translates into a devastating 
cyber attack. In late 2016, Dyn was subjected to a major cyber 
attack in which the attackers co-opted baby monitors and other 
Internet connected devices infected with malware, and that 
flooded the servers of this Internet hosting company. The 
attack led to dozens of major retailers and media sites being 
taken offline for several hours, causing an unknown amount of 
loss of revenue for those companies.
    So if we're going to prevent the ability of hackers to 
disrupt our economy and the flow of information, we're going to 
have to take action to try to raise the cyber defenses of 
consumers' Internet connected devices. I join Senator Warner 
and Senator Gardner's legislation on the Internet of Things 
Cybersecurity Act, and as we have discussed, that really is 
focused on requirements for things that the government 
purchases. But I would be interested in your thoughts on how we 
can enhance cybersecurity in the entire Internet of Things 
market. What's your approach to cybersecurity, and how should 
the Federal Government work with the private sector to ensure 
devices are secure?
    Ms. Siefer, I'll start with you, and I realize we're short 
on time. So just quick answers, if you can.
    Ms. Siefer. Just to make sure everyone realizes that the 
cybersecurity issues also influence broadband adoption, because 
if you are scared, right, because you don't trust the Internet 
of Things, you're not going to use the Internet of Things.
    Senator Hassan. Thank you.
    Anyone else, just briefly?
    Mr. Hassinger.
    Mr. Hassinger. The only thing I would add, Senator, to 
broaden your question is the actual ownership of the data.
    Senator Hassan. Yes.
    Mr. Hassinger. Speaking of our situation, the customer owns 
the data, and then our responsibility is only to collect it, 
store it, and transfer it. So the broader part of that is the 
security, but also the ownership of the data.
    Senator Hassan. Thank you.
    Anyone else?
    Mr. Adcock. Obviously, being in healthcare, security is 
always a concern. It's something that we pay a lot of attention 
to and make sure that we encrypt data on both ends, both in 
transit and at rest. But, again, if the patients aren't 
comfortable with that cybersecurity and what steps we're 
taking, they're not going to use it.
    Senator Hassan. Thank you.
    Thank you very much, Mr. Chair, for letting me go over.
    Senator Wicker. Thank you, Senator Hassan.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chair, and thank you 
for this discussion. It's one we have been having and 
rightfully so. I'm from Nevada--110,000 square miles of the 
five largest counties across the country. We have two of them 
in Nevada with small populations. And when we're talking about 
rural Nevada, and you want to get off the grid, drive through 
rural Nevada. You literally cannot connect.
    That's the challenge. That's the challenge for many people 
that live in rural parts of our state, and that's why I, along 
with my colleagues, have been fighting to bring broadband and 
connectivity to our rural communities for the very reasons that 
we're talking about. Telemedicine is key. There's so many 
services that we can bring to our rural communities that are 
challenged.
    But I'd like to start also with Mr. Hassinger. Obviously, 
some of the agriculture in Nebraska is a little different than 
that in Nevada. But you hit on a similar concern, and that's 
water. Can you speak further about the opportunity of improving 
the precision of measuring drought or measuring possible 
conditions to predict wildfires?
    Mr. Hassinger. So, Senator, what I was referring to--and, 
again, the tool I'll highlight is referred to as Field Net 
Advisor. What this is is there has been technology for several 
years that help determine the center pivots, the irrigation 
equipment. But now we're moving to a level of being able to 
align that with recommendations based on soil conditions, the 
weather, the specific genetics of that crop. What we're seeing 
is not only are we getting an increase in yield by use of that 
technology, but you're using less water. Simply, you're putting 
it right where the plant needs it with only the amount that it 
needs.
    In the example that we have, the trials, we were able to 
get an increase in yield with 17 percent less water. So the 
conservation of water is obviously critical for the whole 
agricultural story, and we see this being a key driver in what 
we're talking about and the need for the adoption of this type 
of technology.
    Senator Cortez Masto. Thank you.
    Mr. Terzich, I appreciate the various applications you 
underscored in your testimony. Can you talk to me about 
examples of where the Internet of Things is benefiting tourism, 
mainly in rural areas, for example, the hospitality sector or 
the outdoor economy?
    Mr. Terzich. I can. You know, for us in the hospitality 
space, it's become a growing area of interest. I can point to 
some specific examples. They may not necessarily be as relevant 
to Nevada as they are to other places. Mr. Young had left. But 
in the state of Colorado, we use a variety of real-time 
locationing tags that principally go on every skier that 
attends any of the Vail resorts in Colorado. So it enhances 
your hospitality experience. It tells you the vertical feet you 
skied, the miles you skied, which runs you did, and people 
share that information, post their experience on social media, 
as an example.
    In the cruise and transportation industry, you're seeing 
more use of passenger identification for applications as simple 
as mustering or simply as we're leaving a certain port. A 
cruise ship is leaving a port. It has to know within an instant 
moment that everyone is available, is back on that ship as 
planned. If something happens in transit, they want to know if 
somebody has left the ship, as examples.
    In areas of theme parks, there are lots of use of Internet 
of Things to adjust the traffic at various attractions. So they 
actually look at dynamic work flow in the form of which 
attractions have a large volume of people. They use lots of 
technology, fast pass technology, things you may hear of in the 
public domain, to basically do better crowd management so that 
you enhance your experience and get the opportunity to see more 
attractions through the course of your day.
    Senator Cortez Masto. So in our rural communities, where 
there's hiking and rock climbing and mountain biking, 
literally, in areas that are remote, it's important to bring 
that sort of broadband there to have that security kind of 
connectivity for individuals that, unfortunately, may 
experience some sort of injury or something. We want to make 
sure we track people and be able to help them and access them 
immediately if there's some sort of injury.
    Mr. Terzich. Absolutely, the ability to respond to a 
critical situation, and I would venture to guess that for 
hikers and outdoor enthusiasts, the same interest applies, 
right? They want to know where they went, how many vertical 
feet they climbed, or how many trails they encountered. So you 
get the ancillary benefit of some social response as well as 
the ability to handle critical situations.
    Senator Cortez Masto. Thank you.
    Any other comments?
    [No verbal response.]
    Senator Cortez Masto. I notice my time is up. I've got 
other questions, but I'll submit those for the record.
    Thank you.
    Senator Wicker. Thank you, Senator Cortez Masto.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and I thank the 
witnesses.
    Mr. Armitage, thank you for your testimony. I look at it 
with great interest because I think that you described well 
what happens as technology comes to any sector. I always say 
around here--I try to explain the transitioning economy and say 
to my young colleagues, the people in my office, there's a 
reason Ma Bell doesn't exist anymore, and they look at me and 
they say ``Who's Ma Bell?'' because they don't know.
    [Laughter.]
    Senator Cantwell. So I'd say that we've gone through this 
major transition of a big behemoth in telecomm to now this data 
we get in our handheld devices every day. So your testimony 
talks about that, particularly as it relates to the workforce 
and the impact on the workforce. Yet I'm assuming you believe 
that the efficiencies are still worth--driving efficiencies to 
be competitive in your sector, and I'm assuming that you want 
to be rewarded for those, not penalized for those. By that, I 
mean there are some people who are discussing, you know, 
letting people waive environmental issues just to--so that 
they'll drill in certain areas, and I think you've been a state 
that's adhered to all the environmental issues. So my guess is 
you wouldn't want to be waiving those. That's not really the 
subject of my question, but if you want to comment on that, you 
can.
    Mr. Armitage. Let me just touch on that point. My 
experience in the last 35 years working in the oil and gas 
industry is that the executives that I know are extraordinarily 
concerned about the safety of their workers and about the 
social responsibility of operating in an environmentally 
conscientious way, very committed to environmental stewardship, 
consistently across the board throughout the industry.
    Senator Cantwell. Right. So on the larger cyber issues, 
since we're seeing all these attacks by state actors, if you 
will, on critical infrastructure, everything from the networks 
of nuclear power plants to pipelines. I mean, we don't want to 
see the Ukraine situation here in the U.S. What do you think we 
should be doing to further our cybersecurity?
    Mr. Armitage. It is a subject that confronts us literally 
every day. It is an incredibly important issue, and we should 
bring it to light and talk about it extensively. Our servers 
get hit by bad actors literally multiple times a day. We're 
deployed, I believe, now in 34 countries. Many of those 
countries are not friendly to the United States. We have 
American workers and millions of dollars of assets that we 
monitor for U.S. companies throughout the world, and as a 
result, we are tested continuously. We've worked very closely 
for the last 11 years with Amazon and with Google and many 
other cloud providers to ensure the integrity of our systems, 
both from the perspective of security and availability.
    So I will tell you that this is an issue near and dear to 
my heart. Mr. Adcock mentioned before the notion of encrypting 
on both sides of the transaction--vitally important. It's one 
of a myriad of issues that we should be paying attention to as 
we consider the industrial Internet of Things.
    Senator Cantwell. Well, thank you for that. I know that--to 
me, I believe that there's much efficiency in what you've done 
with your business and in smart buildings and everything else. 
But we do have to get more serious about the cybersecurity 
issues as a nation, and, as you said, some of this is state 
actors, acting with malice against our country. So I hope we 
can up our game here, and I look forward to following up with 
you on that in collaboration. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you so much, Senator Wicker, for this 
hearing and the importance of what you all have testified to 
today.
    The application of the Internet of Things to rural America 
is absolutely critical, and I think your testimony has 
demonstrated that. I worry that unless we act aggressively and 
with purpose now, rural America will be stuck with the Internet 
of nothing. This is particularly true for my home state of New 
Mexico, where Internet services, connections, and applications 
lag way behind.
    Each one of us know that rural areas do not have the same 
coverage and access as urban areas. To catch up, we must invest 
in high-speed broadband networks as well as other technology to 
connect the hardest to serve areas. And while I appreciate my 
colleague's efforts to help ease permitting and other hurdles, 
what companies need is sustainable, reliable funding and 
investment.
    The FCC's Universal Service Fund programs are essential to 
connecting all areas of the country. But I'm concerned with the 
current direction of some of these programs. For example, the 
Rural Healthcare Program has been capped at $400 million since 
its inception, even now, as that demand has been growing every 
year. This year, providers in New Mexico have been adversely 
impacted due to the unilateral actions of the program 
administrator, denying requests for funding because there is 
not enough funding. This is not sustainable for rural 
healthcare providers, and it's not fair to patients in rural 
communities.
    New Mexico has successfully used the Rural Healthcare 
Program, and it has saved significant healthcare dollars. For 
example, Project Access, a partnership between the University 
of New Mexico and a rural hospital, has performed over 1,200 
consults across the state, saving patients the expense of being 
transported hundreds of miles to our largest city, Albuquerque. 
This program alone is estimated to have saved rural New Mexico 
hospitals $12 million, which is obviously a very significant 
savings.
    The high-cost fund and the Connect America Program support 
carriers providing service to rural areas, but too many rural 
carriers in New Mexico face both shrinking support from the FCC 
and increased costs. We must do better if we genuinely want the 
Internet of Things to be a reality for rural connectivity.
    Mr. Adcock, has the University of Mississippi Medical 
Center received support from the Rural Healthcare Fund?
    Mr. Adcock. We have, as the hub of several spokes, so yes, 
in the rural areas.
    Senator Udall. Do you think that fund should be increased 
to better support increased participation in the program?
    Mr. Adcock. I think the more funds that are available, the 
more that we can spread our service.
    Senator Udall. And, Mr. Adcock, healthcare providers in New 
Mexico have expressed concern that the Universal Service 
Administrative Company requires them to enter into long-term 
contracts with service providers without a guarantee of funding 
from the Rural Healthcare program. Do you have the same 
concern?
    Mr. Adcock. I can't speak to that. I'll have to get back to 
you with that answer.
    Senator Udall. Are there any others that are familiar with 
that, the Universal----
    [No verbal response.]
    Senator Udall. OK.
    Mr. Terzich, I'm concerned about the cybersecurity and 
protection of information that could be transmitted in the 
event of a cybersecurity attack. Can you talk about the 
appropriate cyber hygiene procedures that should be in place to 
protect business and consumers?
    Mr. Terzich. Thank you, Senator. From a Zebra perspective, 
we principally deal with enterprise B-to-B business, and a big 
part of the planning and the rollout of IoT solutions is a 
conjoined effort between the enterprise customer and our 
organization. A lot of our devices, as similarly mentioned in 
some prior conversation--a lot of our devices are generating 
information that is transmitted, and analytical data is shared 
over the broadband infrastructure.
    So, for us, it's imperative that we design, in cooperation 
with the enterprise customer, the appropriate security measures 
to prevent cybersecurity issues. We have some of the world's 
largest customers that have a very high degree of interest in 
this particular area.
    On the consumer side, I do see and I do recognize the 
proliferation of IoT devices will result in more encroachment 
opportunities if there isn't some form of certification and/or 
regulation for some of those devices. We've seen too many 
examples now of devices that become a portal for some 
wrongdoing, and I do think that there has to be some more 
controls imparted on the device manufacturers as part of that 
network.
    Senator Udall. Thank you to all of you for your testimony.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Udall.
    Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman.
    I want to thank the Chair and Ranking Member for today's 
hearing, and I also want to thank our witnesses for 
participating in this very important conversation.
    Today, in the 21st Century, approximately 1.1 million 
people in Illinois are without access to broadband, and 1.2 
million people have access to only one wire provider, and 
another 368,000 don't even have wired Internet providers where 
they live. Frankly, we have children who can't do their 
homework because of the lack of access.
    Mr. Terzich, it's such a pleasure to have you here today 
representing Zebra Technologies, headquartered in Lincolnshire. 
I understand that Zebra's work in the healthcare sector 
provides smartphone platforms that provide a network of 
healthcare facilities in the Midwest to facilitate faster, 
better information sharing, and also response to individual 
patient care.
    I know you've talked a little bit about the logistics part 
of your work, but I'd love to focus a little bit more on the 
healthcare side. About an hour south of where you're located is 
Edward Hines, Jr., VA Hospital, where I go to get my 
healthcare. It's operating a virtual ICU that provides 
continuous monitoring of veterans receiving ICU care throughout 
the entire region. They also offer outpatient care to satellite 
clinics, including six CBOC community-based outpatient clinics, 
via telehealth equipment so these patients don't have to be 
located in the Chicagoland area. They can be anywhere in 
Illinois, Manteno, or any place like that.
    Can you discuss how Zebra's smartphone platforms work and 
how this type of technology can provide more efficient and 
better quality government services, such as by our VA 
hospitals?
    Mr. Terzich. Thank you, Senator, for the question. The 
healthcare segment--for the record, the healthcare segment for 
our business is the fastest growing segment that we have in our 
business. It has principally been driven off of the fact that, 
by and large, the healthcare value chain, if you will--supply 
chain, value chain--is still one of the most inefficient, 
error-fraught value chain that there is in the marketplace. So 
healthcare providers, both at the VA level and at the private 
sector, have been turning to more IoT-based solutioning.
    The challenges of healthcare are many. The patient safety 
initiative has been a very viable one. We use a lot of our 
mobile computing IoT solutions to do a positive patient bedside 
application of medicine to avoid catastrophic errors or 
misapplication of meds so it improves the patient safety 
initiative.
    There's a critical need in healthcare across the network of 
finding available equipment. It's no longer sufficient to know 
where equipment exists in a hospital. You need to know that 
that equipment is staged and ready to be applied. So hospitals 
are using dynamic workflow to get better utilization out of 
equipment, ensuring the right equipment is in the right 
surgical centers at the right time.
    Mr. Adcock had mentioned earlier there is a growing--we see 
a growing interest by the private sector and by the VA to push 
more healthcare to the home. That's principally based on a 
number of reasons. There's a drive for better patient 
satisfaction, but there's also a significant push to lower the 
cost of healthcare, which is a challenge in and of itself here 
in the United States.
    Senator Duckworth. Thank you. Can you talk a little bit 
also about other potential applications in healthcare that 
maybe are more future-based, beyond just where you are now? As 
you said, it's a growing sector. It can bring down healthcare 
costs. But I just think of the myriad of applications, for 
example, for patients in rural communities who can't get to a 
large hospital and being able to direct them to the kind of 
care that they need or to get the care to them.
    Mr. Terzich. The home healthcare space is growing. The 
satellite network care application is growing as well. So 
hospitals are forming smaller satellite locations where the 
exchange of information--they bridge some of the distance that 
patients have to travel in order to get some form of in-
hospital healthcare--is a growing area.
    You had mentioned earlier the Edward Hines Hospital. We're 
doing a lot of work now, a lot of exploratory work, where they 
are optimizing the workflow of a surgical center. The idea of 
turning the surgical center over more frequently is no 
different than turning airplanes off of a gate more quickly. 
You have high-priced equipment, you have high-priced 
caregivers, and how do they stage equipment, stage the surgical 
teams in an appropriate way to move more patients through, 
increase patient safety, get greater utilization of assets.
    Senator Duckworth. Thank you so much.
    I yield back.
    Senator Wicker. Thank you, Senator Duckworth.
    Mr. Adcock, in your testimony, you say that mobile 
broadband has worked for the remote patient monitoring pilot 
program, but, quote, ``as telehealth grows and additional 
services are available in the home, a more flexible fixed 
solution will be necessary.'' What do you mean by that and why?
    Mr. Adcock. I think that some of the issues that we run 
into with mobile technology--and thank you for the question. 
Some of the issues that we've run into with mobile technology 
is around the type of materials homes are built around. So if 
you have a tin roof, if you have a tin mobile home, we have 
some issues with signal getting in from a cellular standpoint. 
So being able to have access to different reliable means that 
aren't affected by the type of home, aren't affected by 
weather, aren't affected by line of sight, is extremely 
important to us.
    As we connect with patients across the state and the 
telehealth grows across the country, we need to be able to 
get--we need to be able to deliver healthcare where and when 
you need it, and the only way to do that is to have reliable 
service, whether that's fixed service, whether that's mobile 
service, that is more reliable and more available and faster. 
Any and all of those are important to us as we try to deliver 
healthcare.
    Senator Wicker. Well, how realistic is that? Wouldn't more 
reliable mobile be a little more realistic than fixed, in terms 
of actually our ability to get it done?
    Mr. Adcock. In patients' homes, absolutely, for sure.
    Senator Wicker. Let me ask you, Ms. Siefer. A number of us 
have stressed the Universal Service Fund. In my opening 
statement, I said the FCC needs to take steps to ensure that 
this provides adequate and predictable support. At the current 
rate, where are we going to be 5 years from now or even 10 
years from now, at the current rate of deployment of broadband 
coverage?
    Ms. Siefer. So the current rate is too slow, in terms of 
the deployment itself and the speed of what it is they're 
deploying. So if you look at the different Federal programs, 
they're not all 25-3. Some of them are 10-1. So we're putting 
Federal money into new infrastructure that's only 10-1.
    Senator Wicker. OK. Well, help us out here. Is this a 
measurement?
    Ms. Siefer. Correct.
    Senator Wicker. A measurement of coverage, which is 
technical and which we understand a little bit about. You said 
that--in your testimony, you said that 39 percent of rural 
Americans lack access to broadband service, and that's if you 
measure it at----
    Ms. Siefer. At 25-3.
    Senator Wicker.--at 25 up and 3 down.
    Ms. Siefer. Yes, sir.
    Senator Wicker. Now, as I understand it, that's going to 
change to 25 down and 1 up? Is that right?
    Ms. Siefer. The current recommendation of the FCC is to 
change it, but it has not changed yet.
    Senator Wicker. If that changes, what would that 39 percent 
become? I guess it would be a better looking figure.
    Ms. Siefer. It's a better looking figure, but it hasn't 
changed anybody's life, no.
    Senator Wicker. Well, let me ask the rest of you. At the 
current rate, are we expanding service at any rate that's going 
to get us where we need to be 5 years from now, 10 years from 
now? Would anybody like to comment on that?
    Mr. Armitage.
    Mr. Armitage. On the wireless side, absolutely. On the 
wired side, probably less so. This is very dependent upon the 
availability of wireless spectrum, but our ability to deploy 
new wireless technologies that deliver high speed to remote 
areas is extraordinary. There are two new technologies coming 
out right now, this year, called LTE, NB, and LTE Cat M1, which 
are transforming the industrial Internet of Things and bringing 
connectivity to remote areas through the existing LTE network, 
that, frankly, is the most important thing probably that's 
happened in the last 10 years, in my experience in the 
industrial IoT space. So the world is changing quickly on the 
wireless side.
    Senator Wicker. I believe you had a recommendation in your 
testimony, Mr. Armitage, that incentives need to change. Would 
you explain what you meant by that?
    Mr. Armitage. I don't believe that was in my testimony. I 
believe the oil and gas industry has every incentive in the 
world, driven by low commodity prices, to reduce operating 
expenses, and that they are acting quickly to streamline their 
business process and leveraging industrial IoT to do it.
    Senator Wicker. All right. Thank you.
    I think we now go back to Senator Markey.
    Senator Markey, you are recognized.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    The Internet of Things could also be considered the 
Internet of Threats. It has a dual personality, and it is 
absolutely essential that we provide protections for 
appropriate cybersecurity and data security to be built into 
these devices. As many as 50 billion IoT devices are projected 
to be in our pockets and homes by the year 2020. Cybersecurity 
will continue to pose a direct threat to economic prosperity, 
privacy, and our Nation's security. That's why I introduced the 
Cyber Shield Act, which would create a voluntary cybersecurity 
certification program for IoT devices.
    The Cyber Shield Act will establish an advisory committee 
of cybersecurity experts from academia, industry, consumer 
advocacy communities, and the public to create cybersecurity 
benchmarks for IoT devices, such as baby monitors, cameras, 
cell phones, laptops, and tablets. The IoT manufacturers can 
then voluntarily certify that their products meet those 
industry standards, the leading cybersecurity and data security 
benchmarks, and display this certification to the public. The 
program will both reward manufacturers adhering to best 
practices and assure that consumers can reliably identify the 
most secure products.
    For each witness, do you believe that a program like this 
will help to improve our devices' cybersecurity?
    Mr. Adcock.
    Mr. Adcock. Again, I think that with the programs that 
we're using, we make sure that the data is encrypted. But, yes, 
anything that we can do to increase the security standards 
would be greatly appreciated from a healthcare standpoint.
    Senator Markey. Great.
    Mr. Armitage.
    Mr. Armitage. In a word, no.
    Senator Markey. Please explain.
    Mr. Armitage. The pace of sophistication of the bad actors 
is extraordinarily fast, probably can outstrip any regulatory 
standards that we could put in place, and, in fact, those well 
defined standards may provide a bull's eye for the bad actors 
rather than the objective, which is to provide a shield. So I 
would suggest that, at least in the industrial sector, the 
industries have tremendous incentive to secure all ends of 
every piece of telemetry, and they are doing that aggressively, 
and, literally, week by week, month by month, they are evolving 
their sophistication.
    Senator Markey. Of course, the problem is not the ones who 
are doing it. The problem is the ones who aren't doing it. 
That's the problem. So by giving a special status to those who 
are doing it, it essentially is saying to consumers, it's 
saying to the world, well, here's a whole crowd over here 
that's changing this thing, and they're not spending the money, 
and that could be half of all of the entities that we're 
talking about.
    Mr. Armitage. And I don't focus on the consumer space, in 
all fairness. I focus strictly on B-to-B. So in the business 
space, those companies will not be selling products for very 
long if they don't secure their products.
    Senator Markey. Right. They won't be, but the public should 
know. They can see it on a car. They can see it on energy star. 
They can see, you know, what gets a good rating and what 
doesn't, so you could vie for the rating, at least, to say for 
this past year they were in the ball park. But it doesn't last 
forever, an energy star rating. But you don't see any merit in 
that at all, Mr. Armitage?
    Mr. Armitage. I think the challenge is that standards are 
evolving----
    Senator Markey. I appreciate that. I'm not saying it lasts 
forever, but for the duration of time that we establish it, 
you've got it, you know, and if you don't keep it up, then----
    Mr. Armitage. I absolutely hear you, and I support the 
notion of creating standards, as long as we understand that 
they're very transient.
    Senator Markey. Right, but they're very transient in every 
area. It's like--if you have no standards, then the only person 
that ultimately gets hung is the consumer. They don't know 
anything. They're just assuming that some CEO that's trying to 
squeeze out a few extra bucks for their pocket, you know, and 
they don't want to spend the money on improving their security 
is actually concerned about them when it's only crocodile tears 
that are coming out of their eyes. So we want them to adopt an 
RSA standard. We want them to adopt a top standard.
    Mr. Hassinger, I'm going to run out of time here. What do 
you think?
    Mr. Hassinger. I sure acknowledge that there is a need for 
standards. Specifically to the Shield Act, I can't speak to it. 
I would need to come back to you with----
    Senator Markey. But the concept of having some information 
out there that people can rely upon?
    Mr. Hassinger. I support that standards are set, as I say. 
To go further than that, I actually need to come back to you 
with more of a thorough response.
    Senator Markey. Right.
    Mr. Terzich, the industry participant, we just voluntarily 
put up that they're actually complying with the standard. What 
do you think?
    Mr. Terzich. I think in the B-to-C space, it would 
certainly be additive and helpful. It would deter, but not 
prevent, as we know. I think there will be and there is an 
expectation of a proliferation of devices on a go-forward 
basis, and there are other complicating factors associated with 
deterrence, including, for the consumer, the home network in 
and of itself and other forces and other factors.
    Senator Markey. One of the standards would be that as the 
security evolves that it improves over time with patches, that 
that company is going to be patching as they see it, and that's 
the standard they're going to adopt. What do you think about 
that?
    Ms. Siefer. I would just ask that within that, there also 
be the education of the consumer so that they understand how to 
use it.
    Senator Markey. But how about if you're meeting the 
standard, that you make it--you're allowed to make it public, 
and that you're going to be updating.
    Ms. Siefer. Yes, because, as we know, if folks aren't 
comfortable--if they think that their data is going to be 
stolen, if anything is going to be stolen from them, if they're 
scared, they're not going to participate in the IoT.
    Senator Markey. I got you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you.
    Let me just ask Ms. Siefer this about the Commission's Form 
477 data collection process. Can you share your views on how 
the Form 477 data collection process can be modernized to 
improve our understanding of where broadband coverage is not 
adequate to support IoT technologies?
    Ms. Siefer. We need to know who has broadband and where. 
Currently, the Form 477--if a provider is serving one 
individual in a census block, that census block is good, which 
we all know is particularly problematic in rural areas, because 
if you have a large census block and one person has coverage, 
we're getting an inaccurate picture.
    So we need to narrow it down much smaller than a census 
block, and we also need to know the speeds at which--because 
right now, they have these very unusual, doesn't kind of make 
sense, blocks of speeds. But rather, we need to be able to look 
at what speeds are actually being offered by the providers and 
know that that's what's available in those areas.
    The one extra thing that nobody wants to talk about is 
cost. It's not part of Form 477 discussions, generally, because 
the providers are really uncomfortable sharing what they are 
charging the consumer. So a bigger issue that's kind of out 
there, that's probably not going to be addressed by Form 477, 
is that we need to know what the cost of broadband is for the 
consumer.
    Senator Wicker. Does the Form 477 answer your census block 
concern?
    Ms. Siefer. Not currently, no.
    Senator Wicker. So you think that needs to be fixed?
    Ms. Siefer. And that is one that is very fixable.
    Senator Wicker. How do we fix that?
    Ms. Siefer. The providers need to be telling us at a 
smaller level and/or more accurately. We cannot say that it's 
OK that they tell us a census block--that they have coverage in 
that census block if only one person has coverage.
    Senator Wicker. Who's going to decide how narrowly to 
divide those blocks up?
    Ms. Siefer. The FCC has the authority to decide that.
    Senator Wicker. On this 25 down and 3 up and 10 down and 1 
up measure of broadband speeds, what broadband speeds does one 
need to currently operate IoT technologies?
    Ms. Siefer. So that's a hugely--the answer varies massively 
by the technology and by the individual who's using the 
technology. So, as mentioned earlier, as video becomes more 
common within the health industry, and we are then wanting that 
patient in their home to use that video with their health 
providers, 10-1 is insufficient, but we're not at a point where 
everybody needs video, currently. But we all shouldn't be 
making decisions about what our situation is now. We as a 
country need to be planning for the future.
    Senator Wicker. Does anyone else want to engage in the 
issue about what speeds are adequate now in terms of operating 
IoT technologies?
    [No verbal response.]
    Senator Wicker. No volunteers? One other thing.
    Ms. Siefer, you say we don't currently have a program to 
address cost. What do you advocate?
    Ms. Siefer. So we don't currently have data that tells us 
what it costs for someone to have broadband in their home. If 
you even do a quick online search, what you'll be able to find 
is an introductory price from a provider at that particular 
address, and you might be able to find what their regular cost 
is. And, sometimes, if you call the provider, they'll tell you 
what the regular cost is. But they don't always, and you can't 
go online right now and find a map that tells us if it's more 
expensive here, it's least expensive here, and these are the 
different price points. So that is something that would need to 
be legislated. That is not--the FCC is never going to tell the 
providers----
    Senator Wicker. Do they have the authority?
    Ms. Siefer. They have the authority, but I don't know that 
they have the political interest.
    Senator Wicker. So administration in and administration 
out, Democrat, Republican?
    Ms. Siefer. No, none of them.
    Senator Wicker. They have not done so. Would you advocate 
legislation?
    Ms. Siefer. It would have to be legislation.
    Senator Wicker. Does anyone wish to take issue with that?
    [No verbal response.]
    Senator Wicker. Well, thank you all for your testimony. I 
think it has raised a lot of questions that need to be looked 
at, but I think we're considerably better off having had your 
testimony, and thank you for working with us and spending the 
time.
    Now, I have to make an announcement before we close. I 
would like to enter into the record a letter from the 
Competitive Carriers Association, which underscores the 
importance of expanding high-speed, reliable Internet 
connectivity to rural areas to advance the Internet of Things 
in these communities. We'll do that without objection.
    [The letter referred to follows:]

                           Competitive Carriers Association
                                                   November 7, 2017

Hon. Roger Wicker, Chairman,
Subcommittee on Communications, Technology, Innovation, and the 
Internet,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Brian Schatz, Ranking Member,
Subcommittee on Communications, Technology, Innovation, and the 
Internet,
U.S. Senate Committee on Commerce, Science, and Transportation
Washington, DC.

Dear Chairman Wicker and Ranking Member Schatz:

    Competitive Carriers Association (CCA) commends the Subcommittee 
for holding today's hearing on the use and benefits of the Internet of 
Things (IoT) in rural areas and respectfully asks that this letter be 
added to the hearing record. CCA's members serve many rural and remote 
parts of our country and understand how providing mobile broadband 
services in these areas is fundamental to providing consumers, 
businesses, public safety officials, health professionals, farmers and 
others with the latest advances in IoT. It is important to note, 
however, the innovations discussed at today's hearing will not be 
possible without robust network connectivity. Coverage and access to a 
network are the beginnings of all things IoT.
    IoT is transforming every sector of America: healthcare, education, 
finance, agriculture, transportation, public safety and commerce. In 
fact, rural Americans stand to benefit most from these revolutionary 
innovations, and are today early adopters of the latest technologies. 
New innovations will help support continued investment in networks in 
rural areas as business models built on a ``river of pennies'' approach 
aggregate scale economies from thousands of new connections. However, 
this future is far from certain, and absent policy decisions to 
preserve and expand mobile broadband in rural America, the future of 
IoT in rural areas will be limited.
Universal Service
    Congress created the Universal Service Fund to support reasonably 
comparable services in urban and rural areas. In today's increasingly 
connected world, those services must include ubiquitous mobile 
broadband services. With the support of bipartisan and steadfast 
leadership from this Committee, the Federal Communications Commission 
(FCC) is moving forward with Phase II of the Mobility Fund. 
Importantly, the FCC is collecting updated and more reliable mobile 
coverage data to determine eligible areas based on a map that should 
more closely resemble consumers' on-the-ground experiences. CCA 
appreciates this Committee's support and ongoing oversight of Mobility 
Fund II as it is implemented to preserve and expand mobile services 
today and lays the foundation for the future of 5G. Next generation 
networks will power untold innovations and are key to unleashing IoT 
technologies in rural areas, and Congress should continue work to 
ensure that the high cost areas connected through USF support, combined 
with private investments, become and remain served.
Streamlining Deployment
    Today, the mobile broadband infrastructure deployment process is 
fraught with unnecessary hurdles and delays that frustrate deployments 
and increase costs across the country. To support expanded IoT 
connections, Congress should champion policies that promote investment 
and streamline unnecessary hurdles through increased certainty 
regarding the facility siting process and timelines for application 
review. Siting is particularly challenging when seeking to deploy on 
Federal lands and facilities, where deployment is often necessary to 
serve rural areas. CCA supports legislative efforts to streamline the 
process and provide increased certainty, including the bipartisan 
``Streamlining Permitting to Enable Efficient Deployment of Broadband 
Infrastructure Act of 2017'' or the ``SPEED Act'' (S. 1988), as well as 
the Senate-passed ``Making Opportunities Available for Mobile Broadband 
Investment and Limiting Excessive and Needless Obstacles to Wireless 
Act'' or the ``MOBILE NOW'' Act (S. 19). Advancing and enacting these 
and other legislative efforts will promote mobile broadband deployment 
to keep pace with IoT proliferation.
Spectrum
    Consumers have become accustomed to ubiquitous service even as 
increasingly the ``last mile'' technology is wireless. In addition to 
physical infrastructure, mobile broadband depends on the invisible 
airwaves that carry ever-growing amounts of data. Access to finite 
spectrum resources, including in rural America, is critical to keeping 
up with consumers' insatiable demand for data services and will be 
further strained as carriers work to deploy 5G next-generation 
technologies. These services, including IoT, require competitive 
carriers to have access to low-, mid-, and high-band spectrum. As the 
Federal government is the largest holder of spectrum, incentivizing 
opportunities to reallocate Federal spectrum for commercial mobile use 
will help support exponentially growing uses. Legislative initiatives 
such as the bipartisan ``Advancing Innovation and Widespread Access to 
Viable Electromagnetic Spectrum Act'' or the ``AIRWAVES Act'' (S. 1682) 
facilitate greater spectrum access while also supporting deployment in 
unserved and underserved areas using a portion of auction proceeds to 
expand services.
    Mobile networks are a key economic driver, and connecting Americans 
through new IoT technologies and innovations has the potential to 
improve quality of life for every citizen. Policymakers must ensure 
rural consumers are not left behind. CCA thanks the Subcommittee for 
its leadership on these important issues, and looks forward to 
continued engagement. We welcome any questions or comments on this 
timely topic.
            Sincerely,
                                           Steven K. Berry,
                                                 President and CEO.

CC: The Honorable John Thune, Chairman, Committee on Commerce, Science, 
and Transportation
The Honorable Bill Nelson, Ranking Member, Committee on Commerce, 
Science, and Transportation

    Senator Wicker. The hearing record will remain open for two 
weeks. During this time, Senators are asked to submit any 
questions for the record. Upon receipt, the witnesses are 
requested to submit their written answers to the Committee as 
soon as possible, with all deliberate speed.
    If anyone has any reason why we should not conclude the 
hearing, speak now or forever hold your peace.
    [No verbal response.]
    Senator Wicker. The hearing is now adjourned, and we thank 
the witnesses.
    [Whereupon, at 11:46 a.m., the hearing was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you, Mr. Chairman, for holding this hearing. The Internet of 
Things has great potential to keep American industry competitive and 
productive and to keep Americans healthy.
    I am looking forward to learning about the latest technological 
developments and what they are doing for rural America. But I am also 
aware that the Internet of Things cannot reach its full potential 
without robust Internet connectivity.
    We also need to remember that the promise of the Internet of Things 
must be balanced with real concerns about privacy and the security of 
our networks. We should all work together to make sure the great 
potential of the Internet of Things does not fall victim to a lack of 
foresight and protections for these systems and the consumers and 
industries that will come to rely on them in the future.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                            Michael Terzich
    Question. During our discussion in Committee, you stated that 
customers of your company, typically enterprise customers, will work 
with you to provide the particular cybersecurity needs. Is there a list 
of common requests you receive from the enterprise customers?
    Answer. Zebra has an internal cross-functional Information Security 
Council that works with Zebra customers to answer questions about our 
security architecture. Zebra's Information Security Council membership 
includes technical, legal and business leaders that respond to specific 
product security questions.
    Customers typically want to confirm that Zebra has formal policies 
and standards covering information asset restrictions, information 
asset classification and management, cryptographic controls, access 
controls, legal and regulatory compliance programs, operations and data 
systems security and facility security. Zebra provides assurances 
regarding the regular testing of key controls, systems, policies and 
procedures related to our security programs.
    In addition, customers often request a review of the Service 
Organization Control 2 (SOC2) report for Zebra's production data 
centers which documents various organizational controls related to 
security, availability and processing integrity.
    Finally, customers also seek confirmation that Zebra has 
appropriate access controls, administrative and technical measures to 
maintain the confidentiality of Customer's data including any 
Personally Identifiable Information (PII).
    The following are common high-level requests received from 
enterprise customers:

  <bullet> Details on Zebra's use of encryption technologies.

  <bullet> How physical-layer security is implemented in products.

  <bullet> Details on the methods Zebra deploys for real-time detection 
        and prevention of security-related incidents.

  <bullet> Details on Zebra's compliance with international data 
        privacy regulations.

  <bullet> Specific information on policies related to the regular 
        auditing of security controls. Examples of actual questions 
        from customers by subject matter:
Network Security
  <bullet> Describe your network architecture.

  <bullet> What is your firewall infrastructure?

  <bullet> Is the network monitored 24/7?

  <bullet> Is there proper security testing procedures to network 
        infrastructure?

  <bullet> Is your network properly secured (two step authentication, 
        secure gateway, restricted network access etc.)?

  <bullet> What are password standards?

  <bullet> Have you implemented commercial software solutions that 
        address virus/malware related issue?

  <bullet> How is remote access to your network monitored and 
        protected?

  <bullet> Are appropriate user account restrictions in place to only 
        allow employees to access information needed to complete their 
        job duties?

  <bullet> What mechanisms are in place to log, store and review all 
        significant activity?

  <bullet> Are server builds standardized and hardened to a level 
        appropriate to the environment in which they operate?

  <bullet> What procedures are in place for remaining up to date with 
        system and security fixes, performing adequate testing and 
        applying to production servers?

  <bullet> Do you adhere to industry standards?

  <bullet> Do you comply with applicable laws and regulations related 
        to security and privacy?

  <bullet> Does Zebra maintain insurance that covers security 
        incidents?
Data Handling
  <bullet> How do you handle storage/transmission/use of personal 
        information?

  <bullet> How is one customer's data isolated from the data of other 
        customers?

  <bullet> Are databases encrypted?

  <bullet> Where applicable, is Zebra PCI compliant?
Backup/Disaster Recovery Plan
  <bullet> How do you ensure ongoing service in the event that a system 
        fails?

  <bullet> What is your incident response procedure?

    <ctr-circle> Are all incidents logged?
Managing Threats & Vulnerabilities
  <bullet> How do you ensure that security measures are up to date?

  <bullet> How are system patch and vulnerability identification 
        managed?

  <bullet> Are internal audits of information security systems present?

  <bullet> Will customer information be stored outside of U.S.?

  <bullet> Is third party network access restricted?

  <bullet> Are third party security assessments performed?
Personnel Access Security
  <bullet> How are security policies communicated within the 
        organization?

  <bullet> How are confidentiality and security responsibilities 
        addressed with employees, vendors, and consultants?

  <bullet> Are pre-employment background checks performed?

  <bullet> Are individuals subject to disciplinary action for violation 
        of security requirements?

  <bullet> Are staff only allowed to access the minimum amount of 
        confidential information required to fulfill their job?

  <bullet> Is there a security awareness program and is it included in 
        employee training?

  <bullet> What is required to access these applications (ID, Password, 
        Token)?
System Management
  <bullet> How is security administered on Zebra systems?

  <bullet> Does Zebra employ methods to detect and prevent malicious 
        and/or accidental changes?

                                  [all]

                  This page intentionally left blank.

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
